SEMIANNUAL REPORT
TO CONGRESS
OCTOBER 1, 2003 - MARCH 31, 2004
MISSION STATEMENT




            The mission of the U.S. Postal Service Ofﬁce of Inspector
            General is to conduct and supervise objective and
            independent audits, reviews and investigations relating
            to Postal Service programs and operations to:
              ■   Prevent and detect fraud, waste and misconduct;
              ■   Promote economy, efﬁciency and effectiveness;
              ■   Promote public integrity; and
              ■   Keep the Governors and Congress informed
                  of problems, deﬁciencies and corresponding
                  corrective actions.
 A MESSAGE FROM THE INSPECTOR GENERAL
S    hortly after my arrival, Inspector
     General (IG) executives met
with the U.S. Postal Service Board
                                          a strong traditional OIG, but also
                                          one that anticipates and embraces
                                          emerging issues. The initiatives
                                                                                     Our ﬁfteenth semiannual report sets
                                                                                     forth the signiﬁcant activities and
                                                                                     accomplishments of this ofﬁce from
of Governors Audit Committee to           are: organizational redesign, value        October 1, 2003, through March
discuss a range of topics. One of the     enhancement and performance                31, 2004. It details our efforts to
topics was the Ofﬁce of Inspector         orientation.                               improve the economy and efﬁciency
General (OIG) Semiannual Report.                                                     of postal operations and to combat
                                          The OIG has been restructured to
The September 2003 Semiannual                                                        fraud, waste and misconduct within
                                          reduce mission support investments,
Report had introduced many of the                                                    the Postal Service, and fulﬁlls our
                                          in order to increase mission delivery
IG community’s best practices to                                                     reporting requirement under the
                                          investments. Increased mission
make the report more state-of-the-                                                   Inspector General Act.
                                          delivery capacity will substantially
art. But the Governors wanted more
                                          increase value in a budget-neutral         In this reporting period, the Ofﬁce of
than a state-of-the-art report. They
                                          way. Also, the audit organization          Inspector General issued 199 audit
asked for a report that provided a
                                          created issue areas that exactly           reports, management advisories
comprehensive analysis of the Postal
                                          mirrored Postal Service business           and other products. These efforts,
Service. I agreed with them.
                                          units. The investigative organization      some of which were accomplished
This report introduces a new              developed ﬁeld ofﬁces that were            by the OIG and postal management
approach that changes it from             responsive to the Postal Service’s         jointly, resulted in over $277 million
an account of OIG activities to an        nine geographic areas. Professional        in questioned costs, unrecoverable
OIG analytical report on the Postal       counterpart meetings have begun            costs, funds put to better use and
Service. This report format is aligned    with business agendas that focus           revenue impact. In addition, the
with the Postal Service’s strategic       on improving the Postal Service’s          OIG completed 282 investigations
goals. It fully complies with statutory   effectiveness and efﬁciency. OIG           resulting in 46 arrests, 48 indictments,
requirements and attempts to              audit directors and special agents in      26 convictions; and over $17 million
present a cohesive picture of Postal      charge work with Postal Service vice       in ﬁnes, restitutions, and recoveries,
Service programs and operations.          presidents in planning and reviewing       of which over $4 million was returned
The OIG’s audit and investigative         work as well as tackling issues to         to the Postal Service.
results are now embedded in the           assure integrity.
                                                                                     I wish to thank the Postal Service
context of our reporting on Postal
                                          The OIG enhanced performance               for its full cooperation and strong
Service issues. Other statutory
                                          metrics for all components                 support of all our efforts. Postal
requirements are contained in the
                                          to increase value. Goals and               executives have made a strong
appendices.
                                          expectations are aligned with a            commitment to working with
I want to bring a few internal matters    new pay-for-performance system.            the OIG and have made that
to the attention of our stakeholders      The OIG believes this will result in       commitment known to their full
and to Congress. I will do that in this   a performance-driven organization          leadership team.
message to preserve the report for        that delivers substantial value.
                                                                                     This ofﬁce is committed to innova-
our analysis. Before my arrival, the
                                          The OIG has also entered a strategic       tions that will make the OIG a great
OIG had been gripped by crisis for
                                          alliance with the Postal Inspection        deal for the American people and a
many months, as a result of certain
                                          Service to end years of internal conﬂict   powerful tool for the Postal Service
past management practices and
                                          and bring powerful new resources           and for Congress.
ﬁscal activities. Upon arriving, I met
                                          in support of new investigative
with postal executives, the Board
                                          operations. These include disability
of Governors and congressional
                                          fraud, revenue assurance, contract         Sincerely,
committees to understand those
                                          fraud and new efforts to guard against
issues and practices that resulted
                                          embezzlement. I am conﬁdent that
in the dangerous crisis the ofﬁce
                                          the investigative initiatives and the
confronted.
                                          new tool of audit issue area planning
Those meetings resulted in three          will provide for the construction of
initiatives to introduce changes that     a strong and responsive strategic          David C. Williams
should make the ofﬁce not just            planning process.                          April 1, 2004




                                                                                            October
                                                                                            October 1,
                                                                                                    1,2003
                                                                                                       2003 -- March
                                                                                                               March 31, 2004 || ii
                                                                                                                     31,2004
SUMMARY OF PERFORMANCE
October 1, 2003—March 31, 2004




                                     AUDIT
                                     Reports issued ................................................................ 199
                                     Signiﬁcant recommendations issued .................................. 43
                                     Total reports with ﬁnancial impact ..................................... 38
                                          Funds put to better use ................................. $78,706,060
                                          Questioned costs1 ....................................... $197,232,283
                                          Unrecoverable costs ........................................ $1,256,827
                                          Revenue impact ................................................. $ 264,374

                                          TOTAL ....................................................... $277,459,5442


                                     INVESTIGATIONS3
                                     Arrests ............................................................................... 46
                                     Indictments/informations .................................................. 484
                                     Fines, restitution and recoveries ........................ $17,324,7325
                                          Amount to Postal Service5 .............................. $4,155,269
                                     Convictions/pretrial diversions ........................................... 26
                                     Actions affecting Postal Service employees ....................... 13


                                     HOTLINE CONTACTS
                                     Facsimile (FAX) ................................................................ 217
                                     E-Mail .............................................................................. 852
                                     Standard Mail .................................................................. 568
                                     Voice mail messages ....................................................... 465
                                     Phone calls ................................................................... 6,482
                                     TOTAL CONTACTS ................................................... 8,584

                                     1
                                         Includes unsupported costs of $513,055.
                                     2
                                         The Postal Service agreed to recommendations or proposed alternative corrective actions, that, if
                                         implemented, could result in over $277 million in savings.
                                     3
                                         To the fullest extent possible, Ofﬁce of Inspector General (OIG) investigative cases will be worked
                                         with the Postal Inspection Service. During this period, a number of cases were investigated jointly
                                         and plans call for working the majority of cases together in the future. The OIG expresses its ap-
                                         preciation at the willingness of the Postal Inspection Service to jointly work the strategic alliance with
                                         our Ofﬁce of Investigations.
                                     4
                                         Includes 4 that occurred prior to the period but were not previously reported.
                                     5
                                         Amount included in Fines, restitution and recoveries.




        ii | October 1, 2003 - March 31, 2004
TABLE OF CONTENTS



          Introduction ........................................................................................................... 2
          The Postal Service’s Strategic Direction ................................................................. 4
                 Goal 1: Improve Service ................................................................................. 7
                 Goal 2: Manage Costs ................................................................................. 10
                 Goal 3: Enhance Performance-based Culture .............................................. 17
                 Goal 4: Grow Revenue................................................................................. 23
                 Goal 5: Pursue Legislative Change............................................................... 27
          Organization Chart............................................................................................... 30
          Map of Ofﬁce Locations ....................................................................................... 31
          Appendices ......................................................................................................... 32
                 Appendix A – Quantiﬁable Potential Monetary Beneﬁts ................................ 32
                    Report Listing ........................................................................................... 36
                 Appendix B – Findings of Questioned Costs ................................................ 40
                 Appendix C – Recommendations That Funds Be Put to Better Use ............. 42
                 Appendix D – Reports with Signiﬁcant Recommendations Pending
                              Corrective Actions ................................................................. 43
                 Appendix E – Signiﬁcant Management Decisions in Audit Resolution ........... 46
                 Appendix F – Investigative Statistics............................................................. 46
                 Appendix G – Summary of Postal Service Investigative Activities
                              Under Title 39 USC § 3013 .................................................... 47
                 Appendix H – Closed Congressional and Board of Governors Inquiries ........ 48
          Supplemental Information .................................................................................... 50
                 Audit Synopses ........................................................................................... 50
                 Investigative Synopses ................................................................................. 53
                 Freedom of Information Act Requests...........................................................55
                 Glossary ...................................................................................................... 56




                                                                                          October 1, 2003 - March 31, 2004 | 1
INTRODUCTION
                               The Postal Service’s ability to maintain            than 200 billion pieces of mail each year.
                               or increase its market share of the $900            This represents more than 46 percent of
                               billion mailing industry is essential to            the world’s mail.
                               providing universal service at affordable
                                                                                   Based on revenue, it is the eleventh-
                               rates. To assist Congress, the Governors
                                                                                   largest enterprise in the nation, collecting
                               and postal management in addressing
                                                                                   nearly $68.5 billion in revenue annually.
                               the challenges the Postal Service faces
                                                                                   The Postal Service employs nearly
                               today, the OIG conducts audits of
                                                                                   730,000 career employees, making it the
                               Postal Service programs and operations
                                                                                   second-largest civilian employer in the
                               to improve economy and efﬁciency
                                                                                   nation. To deliver world-class service, the
                               as well as investigations to prevent
                                                                                   Postal Service must excel in performing
                               and detect fraud, waste, misconduct
                                                                                   its core business processes of accepting,
                               and mismanagement. OIG audits and
                                                                                   processing, transporting and delivering
                               investigations play a vital role in helping
                                                                                   the mail, as well as marketing postal
                               the Postal Service operate effectively
                                                                                   products and services.
                               and efﬁciently in a globally competitive
                               environment.

                                                                                   HOW DOES THE POSTAL
                               WHAT DOES THE POSTAL                                SERVICE DO IT?
                               SERVICE DO?                                         Visualize over 650 million letters, cards,
                               The Postal Service’s mission is to bind the         magazines, packages and catalogs in
                               nation together by providing prompt and             the mail stream each day, including mail
                               reliable mail delivery at fair and equitable        dropped into any one of almost 300,000
                               prices to all customers. It delivers more           street collection mail boxes. Postal
                                                                                                     employees collect this
                                                                                                     mail and transport it to
                                                                                                     258 mail processing
                                                                                                     facilities, where the mail
                                                                                                     is sorted by destination.
                                                                                                     Once the mail reaches
                                                                                                     the processing facility,
                                                                                                     state-of-the-art
                                                                                                     automated processing
                                                                                                     and sorting equipment
                                                                                                     moves it to the right
                                                                                                     equipment or processing
                                                                                                     location. At high speed,
                                                                                                     letters are sorted and
                                                                                                     barcoded. Each hour,
                                                                                                     tens of thousands of
                                                                                                     letters are fed through
                                                                                                     automated machines
                                                                                                     that apply or read a
                                                                                                     barcode denoting the
                                                                                                     ZIP Code and speeding
                                                                                                     delivery to your home or
                                                                                                     business.

                               Sending missent mail to the correct mail distribution center keeps
                               postal operating costs down.


    2 | October 1, 2003 - March 31, 2004
During this process the mail is assigned           send bills and letters. Each group of
to the proper air or surface transportation        customers has unique needs for which
network to ensure that it is delivered on          the Postal Service has created targeted
time.                                              products and services.
The Postal Service spends billions of              The Postal Service wants to ensure its
dollars per year to transport and deliver          services are available at places where
mail over a transportation network that            its customers choose to do business.
stretches from Alaska to Florida and               Most customers obtain postal products
beyond. This network uses almost                   and services from the vast postal retail
every mode of transportation possible,             network that includes more than 37,000
including plane, train, automobile, ship           Post Ofﬁces, stations, and branches.
and even mule train to ensure the mail             Post Ofﬁces provide local access to more
gets to the “last mile” in a timely fashion.       than seven million Americans daily and
                                                   offer various services for customers to
Approximately 300,000 carriers deliver             send their mail. These services range
mail six days a week (plus Express                 from First-Class Mail® (postcards and
Mail service on the seventh day) to                letters) to expedited services such as
142 million addresses. The average                 Express Mail and Priority Mail and to
household receives about 1,420 pieces              packages. The Postal Service also offers
of mail each year. This is how the Postal          other services—such as Certiﬁed and
Service delivers to everyone, everywhere,          Registered Mail—that allow customers to
every day, and why it is considered                conﬁrm delivery of their mail. In addition
the universal gateway to the American              to shipping supplies, the Postal Service
household.                                         sells stamp subscriptions and collectible
                                                   stamps, packaged as patriotic keepsakes
                                                   or combined with coins to create
WHAT PRODUCTS AND                                  collectible products.
SERVICES DOES THE                                  If you cannot get to the Post Ofﬁce,
POSTAL SERVICE OFFER?                              the Postal Service tries its best to
In today’s economy, creating customer              bring the Post Ofﬁce to you. Limited
value means both improving the quality and         services are offered at more than 4,000
affordability of products and services and         privately operated contract retail units
making them accessible and convenient for          usually found in a local store or place of
customers. So, the Postal Service works to         business. Customers can also purchase
understand its customers.                          postage stamps through the mail, from
                                                   more than 29,000 vending machines,
Postal customers range from major                  online or at 20,000 ATMs and Automated
mailers, such as marketing companies               Postal Centers, as well as at a variety of
mailing advertisements, to household               retail outlets.
mailers who use the Postal Service to




The OIG conducts audits of Postal Service programs and operations to
improve economy and efﬁciency.




                                                                                       October 1, 2003 - March 31, 2004 | 3
THE POSTAL SERVICE’S STRATEGIC DIRECTION
                               The Postal Reorganization Act of               and strategies, and calls for legislative
                               1970 established the Postal Service’s          action by Congress that provides Postal
                               business model, which was based on             Service management with greater
                               the assumption that mail volumes would         managerial ﬂexibility.
                               continue to increase enough to cover
                               rising costs and lessen rate increases.        TRANSFORMATION PLAN,
                               Under this business model, the Postal          APRIL 2002
                               Service pays for nearly all of its operating
                               costs with revenue generated from its          The General Accounting Ofﬁce (GAO)
                               products and services. It receives only        placed the Postal Service on its High-Risk
                               a modest government appropriation for          list in April 2001. The GAO stated that
                               revenue foregone to cover free mail for        fundamental changes need to be made
                               the blind, postage for voting materials        to the Postal Service’s business model
                               of military personnel and citizens living      (as First-Class Mail volume declined)
                               overseas and the postage on balloting
                               materials mailed in bulk between state
                               and local election ofﬁcials. More recently,
                               the Postal Service has received funding
                               for Homeland Security and for its
                               Emergency Preparedness Plan. Volume
                               increases are needed to ﬁnance the cost
                               of a growing delivery network. Were it
                               not for the expanding network, prudent
                               management should be able to limit price
                               increases to the rate of inﬂation.
                               In today’s environment, this business
                               model presents challenges to the Postal
                               Service. Mail volume is not increasing
                               enough to cover operating costs. For
                               example, volume from certain mail
                               categories, such as First-Class Mail,
                               is decreasing, while the number of
                               addresses the Postal Service serves is
                               increasing. In FY 2003 alone, the Postal
                               Service added 1.9 million new delivery         The GAO, Congress and other stakeholders called on the
                                                                              Postal Service to develop a comprehensive transforma-
                               points (new addresses). The Postal
                                                                              tion plan that would address ﬁnancial, operational and
                               Reorganization Act did not foresee this        human capital challenges.
                               challenge to generating sufﬁcient revenue;
                               nor did it address the central challenge for
                               the Postal Service’s strategic planning in a   and the legal and regulatory framework
                               dynamic and competitive environment.           that supports it, to provide for the Postal
                               To begin to address these issues,              Service’s long-term ﬁnancial viability.
                               the Postal Service published its               The GAO, Congress and other
                               Transformation Plan in April 2002. The         stakeholders called on the Postal
                               plan updated a series of cost-cutting          Service to develop a comprehensive
                               measures that began in FY 2001 and             transformation plan that would address
                               committed to reduce costs by $5                ﬁnancial, operational and human capital
                               billion by FY 2006. The plan also offers       challenges.
                               alternative long-term structural changes


    4 | October 1, 2003 - March 31, 2004
The Transformation Plan calls for             the current mail monopoly and retain
streamlining operations, attracting           sole access to customer mailboxes. The
new revenue by adding value to                Commission’s other recommendations
core products, and establishing a             include:
performance-based culture to motivate         ■   Transforming the existing Postal Rate
and empower employees to perform
                                                  Commission into an independent
at peak levels. The Postal Service
                                                  Postal Regulatory Board with broad
believes these near-term solutions can be
                                                  oversight authority.
accomplished without legislative change.
However, the longer-term solution for the     ■   Replacing the existing rate-setting
business model requires congressional             process with an incentive-based
action, which would provide the Postal            rate-setting methodology that would
Service with a new business model                 streamline the existing rate-setting
offering greater ﬂexibility in pricing,           process.
operations and human resources, while         ■   Creating a Postal Network
maintaining universal service.
                                                  Optimization Commission (P-NOC),
                                                  similar to the Defense Base Closure
THE PRESIDENT’S                                   and Realignment Commission, which
                                                  would make recommendations on
COMMISSION ON THE                                 the consolidation and rationalization
U. S. POSTAL SERVICE                              of the Postal Service mail processing
Responding to concerns of the GAO and             and distribution infrastructure.
Congress, on December 11, 2002, the           ■   Revolutionizing postal retail access
President established a nine-member
                                                  by bringing a wider range of postal
bipartisan Commission to craft a vision
                                                  services and products to consumers in
to ensure the efﬁcient operation of the
                                                  grocery stores, pharmacies and other
Postal Service in the 21st century.
                                                  convenient locations.
From January 2003 through July 2003,
                                              These and other recommendations are
the Commission held nine public
                                              an indication of the wide-ranging postal
hearings, which solicited comments from
                                              reform the Commission proposes.
customers, major mailers, postal unions,
management associations and other             The OIG appreciates that the
interested parties on the subject of postal   recommendations address many of the
reform. In addition, the Commission           major management issues on which
obtained comments from the Postmaster         it advised the Commission during the
General and the Treasury Under                initial comment period. The OIG rebutted
Secretary for Domestic Finance.               charges made by a postal stakeholder
                                              that challenged the necessity of the OIG
In July 2003, the Commission issued
                                              in the postal oversight process. In its ﬁnal
its report, Embracing the Future, which
                                              report, the Commission did not question
stressed the need for the Postal Service
                                              the OIG’s oversight function nor the audit
to remain an independent public entity
                                              and investigative role it plays in postal
with a new business model. This
                                              matters. The OIG will remain engaged in
new business model would limit the
                                              the consideration and implementation of
Postal Service’s activities to accepting,
                                              the recommendations of the President’s
collecting, sorting, transporting
                                              Commission by Congress, postal
and delivering letters, newspapers,
                                              stakeholders and the Postal Service.
magazines, advertising mail, and parcels;
                                              As Congress may require, the OIG will
and providing other governmental
                                              continue to inform and advise on the
services when in the public interest and
                                              recommendations of the Commission.
where the Postal Service can recover the
cost of such services. The model would
also allow the Postal Service to maintain


                                                                                    October 1, 2003 - March 31, 2004 | 5
                           FIVE-YEAR STRATEGIC PLAN                        4. Grow Revenue through enhancing
                                                                              core services and providing greater
                           FY 2004-2008                                       value to customers.
                           The Postal Service’s current ﬁve-year
                           strategic plan provides four broad              5. Pursue Legislative Change (Reform)
                           strategic goals focused on results and             by obtaining greater legislative
                           describes how the Postal Service will              and regulatory ﬂexibility to improve
                           continue to respond to the American                service, manage costs, empower
                           people and increase its value to the U.S.          employees and respond to customer
                           economy. The plan also describes an                needs.
                           overarching initiative that connects the        The OIG concentrates on high-risk and
                           other goals through greater legislative         strategically important areas to provide
                           and regulatory ﬂexibility. The four strategic   the Postal Service with an unbiased
                           goals and overarching initiative are:           assessment on the progress made in
                           1. Improve Service by providing timely,         achieving its goals. The OIG is currently
                              reliable and accurate mail delivery          looking at areas such as the Postal
                              service to a growing universal               Service’s performance measures and
                              network, and convenient access to            integration of its strategic goals.
                              postal services for all customers and
                              all communities.
                           2. Manage Costs and improve
                              productivity to maintain fair and
                              equitable prices for all customers.
                           3. Enhance Performance-based Culture
                              by maintaining an accountable,
                              motivated and diverse workforce
                              empowered to maximize
                              performance in a safe and secure
                              work environment.




6 | October 1, 2003 - March 31, 2004
GOAL 1: IMPROVE SERVICE
   The Postal Service’s ﬁrst strategic goal       system, both of which provide information
   is to provide timely, reliable and accurate    to better manage delivery routes, were
   mail delivery service to a growing             successfully deployed and use the
   universal network, and convenient access       Delivery Performance Achievement and
   to postal services for all customers and       Recognition System as a benchmarking
   communities. Most postal stakeholders          tool to improve and recognize good
   would agree that prompt delivery of            performance.
   bills and payments; reliable delivery of
                                                  The OIG is currently reviewing city letter
   magazines, newsletters and newspapers;
                                                  carrier operations, with a focus on
   timely delivery of information that makes
                                                  supervisory use of information in DOIS
   shoppers aware of products, services
                                                  and MSP to manage carriers. This review
   and issues; and convenient, accurate
                                                  will also assess managing workload to
   delivery of packages are all critical to
                                                  workhours, street management and route
   economic progress in the 21st century.
                                                  inspections, and mail volume reporting.
   Service is one of the most fundamental         The OIG also plans a future review of rural
   indicators of postal performance.              letter carrier operations.
   The Postal Service has established
                                                  Transportation Management Information
   standards and measurement systems
                                                  Systems. New information systems to
   for Priority, Express and First-Class
                                                  improve transportation performance are
   Mail services, and is implementing
                                                  underway to capture information that
   programs to continue to improve
                                                  will be used to optimize network design,
   service performance. The Postal Service
                                                  improve transportation efﬁciencies and
   believes that strategies supporting
                                                  enhance service. The Postal Service has
   service improvements are tied with those
                                                  made progress on a number of these
   supporting productivity improvements
                                                  systems to enhance the Postal Service’s
   and has targeted two overarching
                                                  ability to assure mail is planned and
   strategies and supporting initiatives to
                                                  routed effectively and that transportation
   guide it in achieving its goal of improving
                                                  contractors and the Postal Service have
   service. The strategies are: improve the
                                                  the data to assess costs and service
   consistency and quality of service and the
                                                  performance more accurately.
   efﬁciency of operational processes, and
   enhance tracking technology.                   Further, the OIG is concerned about
                                                  the reliability of systems developed.
   The strategies and initiatives to achieve
                                                  For example, the OIG has observed
   convenient access to postal services for all
                                                  weaknesses in the Transportation
   customers and communities are discussed
                                                  Information Management Evaluation
   under the ‘Grow Revenue’ section of this
                                                  System (TIMES), particularly with
   report.
                                                  regard to overstating utilization rates.
                                                  This system may be the focus of a future
                                                  OIG review. The Postal Service, however,
   IMPROVE CONSISTENCY,                           has plans to replace TIMES with another
   QUALITY OF SERVICE AND                         system that may improve tracking of
   THE EFFICIENCY OF                              utilization rates.
   OPERATIONAL PROCESSES                          Service Performance Measurement
   Delivery Operations. The Postal Service        Systems Development. The Postal Service
   is making progress in improving delivery       recognizes the need for reliable service
   operations efﬁciency. For example, the         performance tracking for all categories
   Postal Service reported that the Delivery      of mail and has been working on several
   Operations Information System (DOIS)           programs to develop effective and
   and the Managed Service Points (MSP)           efﬁcient systems that will add value.

                                                                                       October 1, 2003 - March 31, 2004 | 7
                           Many customers are currently obtaining         postal operators, improving service
                           relevant data from these systems and           quality and redeﬁning existing products.
                           the Postal Service works closely with          As part of its efforts to enhance the
                           business customers to regularly evaluate       international mail segment, the Postal
                           and improve overall service performance,       Service is cooperating with Canada and
                           while using data from these systems as         Europe to develop a valid and reliable
                           a diagnostic tool for improving service.       external measure of international letter
                           However, none of the systems have yet          service between major cities.
                           been accepted as measurement systems
                                                                          Address Management. Service
                           for service performance evaluations
                                                                          performance depends on the quality of
                           under the Government Performance and
                                                                          addresses on the mail, proper preparation
                           Results Act, as applied to the Postal
                                                                          and induction points on mail entering
                           Service under 39 U.S.C.§ 2803.
                                                                          the postal system. The Postal Service
                           For example, First-Class Mail service          works closely with the mailing industry
                           performance is measured by the External        and major customers to establish relevant
                           First-Class (EXFC) Measurement System.         standards and effective systems, to
                           EXFC externally measures collection            provide both the lowest total mailing cost
                           box to mail slot delivery performance,         and improved service.
                           continuously testing a panel of 463
                                                                          The Postal Service is pursuing an
                           ZIP Code areas selected on the basis
                                                                          aggressive policy of ongoing quality
                           of geographic and volume density,
                                                                          reviews and implementing technological
                           from which 90 percent of First-Class
                                                                          and procedural improvements to ensure
                           Mail volume originates and 80 percent
                                                                          better communication between delivery
                           destinates. Based on an OIG review, the
                                                                          units and the address management
                           Postal Service has recognized that EXFC
                                                                          program. A focus was placed on
                           is not a system-wide measurement of all
                                                                          increasing the use of the Internet change-
                           First-Class Mail performance.
                                                                          of-address service, which is the least
                           In 2002, the OIG identiﬁed factors that        expensive, most accurate and most
                           Postal Service ofﬁcials believed were          timely way to collect change-of-address
                           critical to meeting EXFC Measurement           information. In FY 2003, customer usage
                           System service standard scores. The            of this service increased by more than 60
                           critical factors included commercial airline   percent over FY 2002.
                           performance; mail preparation, condition
                                                                          The OIG previously assisted the Postal
                           and arrival times; adequate facilities;
                                                                          Service in evaluating various options
                           and management stability and stafﬁng.
                                                                          for change-of-address services offered
                           The OIG also noted that practices were
                                                                          by commercial Internet companies.
                           implemented in efforts to control the
                                                                          Additionally, the OIG has advised
                           factors affecting scores but that the
                                                                          the Postal Service of the high costs
                           Postal Service had no formal mechanism
                                                                          associated with mishandled mail
                           for identifying, assessing and sharing best
                                                                          using the Address Change Service (an
                           practices affecting service standards on a
                                                                          automated address correction service).
                           nationwide basis.
                                                                          The Postal Service is in the process of
                           International Mail. The Postal Service         implementing the Postal Automated
                           has signiﬁcant competition in every            Redirection System (PARS), which will
                           major category of service, not only            identify and redirect undeliverable-as-
                           from traditional carriers, but also from       addressed mail pieces at their induction
                           deregulated and privatized foreign             point instead of at their destination point.
                           postal operators, such as those of the
                                                                          Worksharing. The GAO noted the
                           Netherlands, Germany, Canada and
                                                                          President’s Commission report proposed
                           Great Britain. The Postal Service plans
                                                                          requirements for worksharing discounts
                           to retain and increase international
                                                                          to be based on the costs that the Postal
                           market share by developing business
                                                                          Service is estimated to avoid, as a
                           relationships with major international

8 | October 1, 2003 - March 31, 2004
                                                                                                                                GOAL 1: IMPROVE SERVICE
result of mailer worksharing activities,      recognized that capturing real-time
to prepare, sort and transport the mail.      information has revolutionized postal
Mailers may receive discounts if they         products and services, but acknowledges
make the extra effort to provide properly     that a complex union of postal services
addressed mail that can be handled by         and digital technology will be necessary,
automated postal equipment or can skip        in order to meet customers’ expectations
postal operations through presorting or       of immediate feedback on the status of
using their own transportation to enter       their letters and packages. The Postal
the mail into the postal system closer to     Service is taking advantage of recent
the destination point.                        advances in item identiﬁcation and coding
                                              technology to develop an integrated
Last year, the OIG recommended that
                                              system that signiﬁcantly improves the
postal management develop a rate
                                              ability of the Postal Service and its
case proposal to eliminate destination
                                              customers to manage the mail.
entry discounts for letters destinating at
certain delivery units. Postal management     The Postal Service continues to make
disagreed, citing the need to weigh           progress in implementing strategies
all relevant factors before formulating       to use technology to identify
                                                                                  The Postal Service is implementing technology
a rate proposal, but stated that it has       and track mail pieces and                     to identify and track mail pieces and
been reviewing the issue and expects          improve access, speed and                 improve access, speed and reliability of
to complete the review before the next        reliability of accountable mail                          accountable mail services.
omnibus rate case.                            services. As noted by the
                                              President’s Commission,           report,
                                              tracking mail is a standard
ENHANCE MAIL TRACKING                         service delivered by private
                                              carriers. While the Postal
TECHNOLOGIES                                  Service currently offers
The Postal Service is focusing on             some tracking services, it
enhancing mail tracking technologies          lags far behind consumer
to improve service. Two initiatives,          expectations and the
CONFIRMTM service and Intelligent MailTM,     capabilities of technology.
are discussed below.                          For example, except for
CONFIRMTM Service. CONFIRM is a tracking      Express Mail and Global
system for letters and ﬂats (oversized        Express Guaranteed
letters), using a second barcode, and         services, the Postal
is considered the ﬁrst Intelligent Mail       Service will estimate–but
product. It allows mailers to make better     not guarantee–a delivery
business decisions based on knowing           date for any type of mail.
where mail is in the postal operating         The report continues to
system and when it is scheduled for           point out that if individual
delivery. The CONFIRM system allows           customers require more
near real-time access to data through         complete information
a convenient, easy-to-use website with        about their mail, tracking
dedicated customer support.                   is only available at very
                                              rudimentary levels for a
The OIG reported that if CONFIRM              premium price. The OIG
service was enhanced, it should enable        plans reviews to assess the
the Postal Service to improve customer        Postal Service’s progress in
satisfaction by soliciting feedback, timely   developing Intelligent Mail
notiﬁcation of system changes and             initiatives.
improving training and communication
with business customers.
Intelligent MailTM. In its Transformation
Plan Progress Report, the Postal Service


                                                                                       October 1, 2003 - March 31, 2004 | 9
GOAL 2: MANAGE COSTS
                               The Postal Service’s goal in this area is to   machine throughput, improve address
                               manage costs and improve productivity          recognition and enhance processing.
                               to provide service at the lowest possible      According to the Postal Service’s
                               price. The Postal Service has three            November 2003 Transformation Plan
                               main cost management strategies:               Progress Report, the successful
                               replace labor-intensive processes with         application of automation technology to
                               automation; optimize networks and              letter operations is being duplicated for
                               enhance facility utilization; and reduce       ﬂat mail distribution. The challenge for
                               labor costs and improve employee               the Postal Service is to achieve the same
                               utilization.                                   increased productivity and work-hour
                                                                              savings in ﬂats and package processing
                                                                              as it did for letters.
                               REPLACE LABOR                                  ■   The Postal Service is implementing
                               WITH CAPITAL                                       the Automated Package Processing
                               Over the last 20 years, the Postal Service         System, which will improve sorting
                               has invested more than $13 billion in the          accuracy and productivity in the
                               deployment of automation equipment                 processing of parcels and bundles of
                               that supports the collection, sorting, and         mail. This system has an enhanced
                               delivery of the nation’s mail. Additionally,       processing capacity and is designed
                               the Postal Service plans to invest another         to replace older, more labor-
                               $9 billion over the next ﬁve years. It has         intensive machines. This system
                               made great strides in automating letter            could ultimately save $118.5 million
                               mail.                                              in work-hours during its ﬁrst full
                               By the end of FY 2002, the Postal Service          year in operation. However, a four-
                               distributed approximately 95 percent               month delay in completion of system
                               of letters in automated operations with            performance testing has delayed
                               signiﬁcant savings when compared to                deployment. The OIG is concerned
                               manual processing. The Postal Service              because, to date, improved
                               is applying lessons learned in program             productivity has not been achieved
                               management from letter mail automation             and stafﬁng has not been reduced,
                               to ﬂats. This program management                   potentially resulting in a lower return-
                               experience streamlined the time required           on-investment.
                               to implement the ﬂats automation               ■   The Postal Service is testing a new
                               program.                                           system, Postal Automated Redirection
                               The Postal Service’s automation program            System (PARS), to identify and
                               for the future increases the emphasis on           redirect undeliverable mail at the
                               ﬂats and package automation. To date,              point of origin as opposed to the
                               the Postal Service has been successful             point of destination. Undeliverable
                               in reducing costs while improving service          mail is expensive to process because
                               and productivity. In FY 2002 and 2003,             some of this mail is processed to
                               the Postal Service reported $2.8 billion in        the destination location before it is
                               savings attributable to reductions in work-        identiﬁed. For example, if someone
                               hours and non-personnel expenses.                  moves to a different city, their mail
                                                                                  may not be rerouted to their new
                               The Transformation Plan described                  address until after it has already gone
                               strategies to use automation technology            to their old address. This requires
                               to take more costs out of the Postal               extra handling time. PARS, still in its
                               Service’s operating systems. These                 infancy, did not achieve the expected
                               strategies were designed to increase


    10 | October 1, 2003 - March 31, 2004
    accuracy rate during the system           as they progress from development to
    performance testing. However, the         operation.
    PARS accuracy rate is much higher
    than the system it is replacing. The
    contractor and postal management          NETWORK OPTIMIZATION AND
    are conﬁdent the PARS rate will meet      FACILITY UTILIZATION
    expectations. The system has the          One of the Postal Service’s most
    potential to save between $1 billion      costly expenditures is its infrastructure
    and $1.4 billion through a reduction      investment, which is set up to
    in sort passes and processing time        transport, process and deliver mail. This
    associated with handling redirected       infrastructure was created incrementally
    mail.                                     over the last 30 years to improve service,
The Board of Governors approves               in response to volume growth. With
investments over $10 million. In addition,    recent declines in mail volume, population
postal management is required to prepare      shifts and advances in technology, the
quarterly Investment Highlights reports for   infrastructure contains excess capacity
investments in this category. These reports   and may not be optimally located. The
provide the Board of Governors and postal     Postal Service also manages a vast
management the status of implementation,      highway, air, rail and water transportation
achievement of planned beneﬁts and            network that moves billions of pounds
performance measures. This is especially      of mail each year. In addition, the Postal
true for return-on-investment projects that   Service recognized opportunities to
reduce work-hours in the Postal Service’s     further manage costs in the areas of
distribution, processing and delivery         facilities management, delivery, and
operations.                                   supply chain management. Details on the
                                              Postal Service’s major sub-strategies in
The application of technology to postal       this area follow.
operations is not without risk. For
example, during a past investigation into     Optimize the Distribution Networks. As
the production and use of a letter sorting    part of its Transformation Plan, the
machine, the OIG identiﬁed over-charges       Postal Service developed the Network
pertaining to a claim submitted by the        Integration and Alignment (NIA) initiative,
contractor that resulted in the contract      a sophisticated modeling effort to assess
being reduced by $151,000 and a credit of     restructuring of the Postal Service’s
$35,000 being issued.                         complex processing and distribution
                                              network.
The Postal Service has had success
in applying automation technology to          Its aim is a ﬂexible logistics network that
improve efﬁciency and manage costs            reduces Postal Service and customers’
in the processing and distribution of         costs, increases operational effectiveness
mail. However, several areas still need       and improves consistency of service. The
improvement:                                  NIA initiative will also examine alternative
                                              network distribution concepts that
■   Meeting deployment schedules.             focus on simplifying and standardizing
■   Increasing equipment utilization rates.   operations, with less need for dedicated
                                              class-based networks. NIA will also
■   Consistently capturing empirical          examine more than 500 processing and
    performance data.                         transportation facilities. The President’s
■   Creating meaningful performance           Commission indicated that this is the
    metrics.                                  most tangible and important deliverable
                                              in the Transformation Plan. The network
The OIG plans to conduct reviews of           optimization, which includes NIA, is the
various systems, including the Postal         linchpin that will facilitate driving down
Automated Redirection System and              costs in mail processing, transportation
Automated Package Processing System,          and human capital.

                                                                                   October 1, 2003 - March 31, 2004 | 11
                           The Postal Service formed a cross-            Network operations and logistics
                           functional team for this initiative that      include transportation by air and surface
                           includes operations, facilities, ﬁnance       networks—plus logistical support to all
                           experts, as well as several consultants (a    transportation or other Postal Service
                           postal management consulting ﬁrm and          functions. This movement is supported by
                           supply chain optimization experts). The       major logistical activities, including 22 Mail
                           team developed the models, collected          Transport Equipment Service Centers,
                           and validated data inputs and completed       fuel procurement, vehicle acquisition and
                           initial modeling efforts. The Postal          various supplies and services.
                           Service conducted limited veriﬁcation
                                                                         The Transformation Plan has identiﬁed
                           and validation of the NIA models.
                                                                         network and logistics support strategies
                           This validation and veriﬁcation was
                                                                         intended to reduce or offset costs.
                           not independent or fully documented.
                                                                         Among them are (1) sharing excess
                           Postal Service management agreed that
                                                                         capacities across postal functions in
                           independent veriﬁcation and validation
                                                                         order to raise revenue or share costs,
                           of the models was critical because
                                                                         (2) reﬁning NIA to optimize air and
                           this initiative has signiﬁcant strategic
                                                                         surface transportation, (3) redesigning
                           implications, including the potential
                                                                         logistics to minimize costs, (4) reducing
                           consolidation or closure of postal
                                                                         debt by leasing vehicles and equipment
                           facilities.
                                                                         and (5) outsourcing transportation and
                           The Postal Service subsequently               maintenance services.
                           assembled a team to conduct an
                                                                         In general, the Postal Service continues
                           independent veriﬁcation and validation
                                                                         to make progress towards achieving
                           of the models. At the request of the
                                                                         these goals. For example, at the request
                           Postal Service, the OIG is monitoring
                                                                         of postal management, the OIG reviewed
                           and providing guidance to the team,
                                                                         1,636 highway contracts, visited 103
                           with regard to the independent veriﬁcation
                                                                         plants nationwide, and in conjunction
                           and validation process, and has
                                                                         with Postal Service transportation
                           recommended best practices. The Postal
                                                                         managers, recommended the integration
                           Service will focus on model validation and
                                                                         or elimination of 915 highway trips and
                           concept testing during the remainder of
                                                                         identiﬁed almost $43 million in potential
                           2004.
                                                                         savings, over the three years, or the term
                           While the team is validating the NIA          of the contract.
                           model, the Postal Service and the OIG,
                                                                         Furthermore, the OIG assists with cost
                           in a joint effort, identiﬁed inefﬁciencies
                                                                         efﬁciency by aggressively pursuing acts of
                           associated with several international
                                                                         fraud associated with the Postal Service’s
                           services facilities. Processing operations
                                                                         extensive transportation network. For
                           were consolidated, two facilities were
                                                                         example, in the Southeast area, the OIG
                           identiﬁed for closure, and labor hours
                                                                         is conducting a large joint investigation
                           were reduced. This joint effort resulted
                                                                         with other law enforcement agencies to
                           in a monetary impact of approximately
                                                                         break up a credit card theft ring. To date,
                           $61 million over 10 years. The Postal
                                                                         20 individuals have been arrested for
                           Service and the OIG will continue this
                                                                         their involvement in an organized scheme
                           collaboration to identify opportunities to
                                                                         to fraudulently manufacture and/or use
                           improve operations and reduce costs.
                                                                         government and commercial credit cards.
                           Efﬁcient and Responsive Transportation        Postal Service credit cards were used
                           and Logistics. Mail transport is one of the   to purchase approximately $400,000 in
                           Postal Service’s core operations, costing     fuel, which was subsequently resold. In
                           about $5 billion annually, and is essential   California, theft-related charges were ﬁled
                           to the Postal Service’s success.              against a vehicle repair contractor for




12 | October 1, 2003 - March 31, 2004
                                                                                                                                    GOAL 2: MANAGE COSTS
billing the Postal Service over                      The Postal Service has developed
$1 million while only performing                     strategies to identify opportunities to
$160,000 in authorized work.                         reduce costs or maximize the return on
                                                     investment. These key strategies include
Retail Network Initiative. Most Americans
                                                     standardization of building design,
purchase Postal Service products
                                                     disposal of underutilized or excess
at retail outlets. The Postal Service’s
                                                     property and proactive leasing programs.
major retail challenge is to meet its
                                                     The Postal Service needs to improve
customers’ ever increasing needs for
                                                     the process for identifying and reporting
access, while reducing infrastructure
                                                     excess facilities and vacant space. This is
and operating costs. The Postal Service,
                                                     a critical ﬁrst step in meeting the strategic
over the next ﬁve years, has plans to
                                                     objective of disposal of underutilized or
(1) provide customers with easier and
                                                     excess property.
more convenient access, (2) create
new, low-cost retail alternatives, (3)               The OIG plans to work with the Postal
achieve a stable and efﬁcient network                Service to identify opportunities for
and (4) develop new retail services. The             maximizing revenue through disposition
OIG plans to assess the retail network               of land. Additionally, the OIG is reviewing
optimization initiative to determine                 enforcement of lessor maintenance
whether the model has established                    responsibilities to assist the Postal
performance measures and whether                     Service in reducing overall operating
access will be provided to underserved               costs.
areas while consolidating underutilized
                                                     The OIG is also proactively reviewing
retail ofﬁces.
                                                     common area maintenance clauses
Managing Real Estate Assets. The Postal              contained in leases of shared facilities
Service is one of America’s largest                  to determine whether the Postal Service
owners, developers and managers of real              was overcharged for services such as
estate. The Postal Service operates more             trash removal, utilities, landscaping,
than 37,000 geographically dispersed                 maintenance and snow removal. The
facilities—8,761 postal-owned facilities             cost for these types of services is
and 28,444 leased facilities—and                     calculated based on a dollar amount
occupies space in an additional 443                  per square foot of space occupied. One
federal facilities.                                  investigation recently resulted in a refund




At the request of postal management, the OIG reviewed 1,636 highway contracts and visited
103 plants nationwide.


                                                                                            October 1, 2003 - March 31, 2004 | 13
                           to the Postal Service of over $64,000 and    operational efﬁciencies, and managing
                           a credit of $35,000 in future rent costs.    assets more effectively.
                           Delivery Efﬁciency Improvements. The         Strategies to reduce costs include
                           annual increase in delivery points (new      reducing the supplier base to preferred
                           addresses) puts considerable upward          suppliers and partnering with stakeholders.
                           pressure on costs. During 2003, the          The November 2003 Transformation Plan
                           Postal Service added 1.9 million new         Progress Report revealed that supply
                           delivery points to the system. The Postal    management initiatives have achieved
                           Service has improved delivery productivity   $700 million in cost reductions, cost
                           through the implementation of Delivery       avoidance and revenue generation, since
                           Point Sequencing (DPS) and other             FY 2002.
                           management improvements. DPS is an
                                                                        There have been improvements in
                           automated process used to sort mail
                                                                        business practices and cost-reduction
                           in the sequence that the carrier effects
                                                                        strategies, evidenced through the use of
                           delivery, which has dramatically reduced
                                                                        commodity teams, national contracts,
                           carrier in-ofﬁce work hours. Major
                                                                        expanded use of web-based ordering
                           initiatives in this area include
                                                                        and online auctions.
                           (1) benchmarking delivery performance,
                           (2) testing city carrier route and           Also, the Postal Service recently
                           optimization programs and (3) assessing      adopted the OIG’s proposed Purchasing
                           methods to effectively staff retail units    Manual changes regarding adequate
                           and customize services to meet local         contractor accounting systems, critical
                           community needs.                             contract clauses, and suspension and
                                                                        debarment of contractors for fraud, to
                           The OIG plans to review the efﬁciency
                                                                        decrease its exposure to fraud, waste
                           and effectiveness of city letter carrier
                                                                        and misconduct in its purchasing
                           operations, including ofﬁce preparation
                                                                        operations. It also announced intentions
                           of organizing the mail by address, street
                                                                        to amend its purchasing regulations to
                           management and route examination.
                                                                        allow for the acquisition of goods and
                           Supply Chain Management. The Postal          services in a manner similar to that
                           Service manages contracts with               followed by businesses in the commercial
                           commitment values of over                    environment.
                           $19 billion annually for its goods,
                                                                        The OIG is assisting the Postal Service
                           non-mail transportation services and
                                                                        by reviewing the impact of supply chain
                           facilities-related services. It awarded
                                                                        management initiatives to increase
                           over $4 billion to its suppliers in FY
                                                                        customer satisfaction and decrease
                           2003 for these commodities. Supply
                                                                        overall cost. It is also reviewing long-term
                           chain management is the analysis and
                                                                        professional services ordering agreements
                           adjustment of the purchasing process
                                                                        to maximize the value obtained from
                           and business organizations working
                                                                        Information Technology investments.
                           together, as required, to meet customer
                                                                        The OIG will also continue to work with
                           demand and lower overall cost. It was
                                                                        the Postal Service to ensure purchasing
                           set up to maximize the effectiveness and
                                                                        policies are adequate to reduce overall
                           efﬁciency of these expenditures, using
                                                                        risk in the purchasing process.
                           public and private standard practices.
                                                                        The Postal Service has made signiﬁcant
                           Supply Management, the Postal
                                                                        improvements to strengthen controls
                           Service’s strategically-aligned support
                                                                        over management of contracts, including
                           purchasing organization, has begun to
                                                                        contract actions without deﬁnite pricing
                           implement supply chain management
                                                                        and/or terms and noncompetitive
                           practices in line with the Transformation
                                                                        contracts.
                           Plan’s goal of achieving cost reductions
                           through increased supply chain savings,


14 | October 1, 2003 - March 31, 2004
                                                                                                                              GOAL 2: MANAGE COSTS
The OIG is currently evaluating                 its information infrastructure and
management controls, planning, design           reengineer its systems.
and implementation of a major acquisition
                                                Reduce Labor. The vast majority of
to ensure that it meets cost, schedule
                                                current postal labor requirements are
and functional requirements. The OIG
                                                inextricably tied to infrastructure issues,
also plans to review how the Postal
                                                such as the postal retail network and
Service manages costs in its cost-type
                                                the rising number of delivery points. The
contracts. Also, through contract audits
                                                Postal Service has had some success
of about $1.2 billion from October 2003
                                                in reducing labor costs by streamlining
through March 2004, the Postal Service
                                                processes. In 2003, the Postal Service
is better able to manage overall contract
                                                reengineered and automated accounting
costs by excluding questionable items
                                                processes across the nation. As a result,
such as duplicate proﬁts by interdivisional
                                                85 district accounting ofﬁces were closed
companies, indirect rates, interest
                                                and 800 positions were eliminated by
costs and subcontract costs; thereby,
                                                consolidating the residual activities into
potentially saving about $194 million. The
                                                three Accounting Service Centers. In
OIG will continue to coordinate with the
                                                addition, fully automating the Postal
Postal Service to conduct these contract
                                                Service timekeeping system resulted in
audits.
                                                the reduction of 1,005 timekeepers. Its
Further, the Postal Service needs to            area and district consolidations process
remain vigilant in monitoring and ensuring      worked well and the Postal Service
the integrity of contractors. Recently          was able to consolidate administrative
the OIG identiﬁed inﬂated contractor            functions without impacting operations or
costs and bribery involving a $3.4 million      involuntarily separating employees while
construction and paving contract.               still achieving the district consolidation
In another investigation, substandard           goals.
work and questionable charges were
                                                In a joint effort to improve the efﬁciency
identiﬁed in a contract for asbestos
                                                of work performed by employees in
abatement services, which resulted in a
                                                Business Mail Entry Units (BMEUs), the
$1 million restitution to the Postal Service.
                                                Postal Service and the OIG identiﬁed that
During this reporting period, the OIG           work-hours to accept business mailings
had 259 open contract fraud-related             at seven facilities were excessive. These
investigations. Types of fraud schemes          joint reviews resulted in a monetary
commonly seen today include product             impact of $28 million in reduced labor
substitution, defective pricing, cost           hours, over 10 years. Consequently,
mischarging and false claims for services       postal management requested and the
or supplies not provided.                       OIG agreed to suspend future BMEU
                                                reviews, pending the completion of an
                                                analysis on stafﬁng and the impact of
LABOR COST REDUCTION                            the Mail Evaluation, Readability, and
AND EMPLOYEE UTILIZATION                        Lookup INstrument (MERLIN) system
                                                on acceptance activities at the BMEUs.
IMPROVEMENT                                     MERLIN is a system designed to
The Postal Service’s investment in human
                                                automate the mail veriﬁcation process
capital is by far its most costly. The
                                                for business mailings and replaces most
Postal Service has nearly 713,000 career
                                                manual veriﬁcations.
employees and spends more than
75 percent of its expenses on personnel-        The OIG is conducting a review of
related costs. The Postal Service has           MERLIN operations at three BMEUs
developed strategies to address this            to assess MERLIN utilization and
critical component. In addition, in order       performance.
to support current and future business
                                                Managing Labor-related Costs. The
needs, the Postal Service must optimize
                                                Postal Service is a large, labor-intensive

                                                                                      October 1, 2003 - March 31, 2004 | 15
                           organization that faces signiﬁcant                  medical license was suspended pending
                           potential costs associated with injury              the outcome of the judicial proceedings.
                           compensation claims. The accident
                                                                               Technology Infrastructure. A key initiative
                           prevention and safety program at the
                                                                               supporting the distribution of innovative
                           Postal Service has shown improvement.
                                                                               technologies within the Postal Service is
                           The OIG is performing a comprehensive               the Advanced Computing Environment
                           review of accident prevention and safety            (ACE) initiative. This initiative involves
                           issues, as well as benchmarking with                replacing the entire distributed computing
                           private industry.                                   infrastructure and upgrading existing
                                                                               hardware, software, processes and
                           The combined investigative efforts of the
                                                                               support, while enhancing the stability
                           OIG and the Inspection Service to secure
                                                                               and reliability of the infrastructure.
                           access to claimant records will assist the
                           OIG in conducting investigations more               The OIG has reviewed the ACE program
                           efﬁciently while assessing allegations of           and concluded the Postal Service
                           fraud.                                              is meeting ACE program objectives
                                                                               to reduce costs, replace obsolete
                           For example, in California, the OIG
                                                                               technology, and accelerate application
                           partnered with the DOL and the California
                                                                               change and development. The OIG
                           Department of Insurance on a case
                                                                               has reviewed and recommended
                           involving a San Diego physician who pled
                                                                               improvements in ACE security and plans
                           guilty to submitting false statements in
                                                                               additional security assessments later
                           connection with services not provided to
                                                                               this year.
                           Postal Service claimants. The physician’s




                           The OIG is conducting a review of MERLIN operations at three
                           BMEUs to assess MERLIN utilization and performance.




16 | October 1, 2003 - March 31, 2004
GOAL 3: ENHANCE PERFORMANCE-BASED CULTURE
   The Postal Service has long realized that    retire usually stay well beyond retirement
   its organizational success depends on        eligibility. The Plan also states, however,
   the efforts of postal employees. Since       that the Postal Service has recruitment
   at least 1998, its plans for success         strategies and new programs to
   have included the establishment              enhance its ability to retain, recruit and
   of a performance-based culture to            develop employees. For example, for
   “Improve employee and organizational         three of its management programs, the
   effectiveness by having the right people     Postal Service will recruit individuals
   in the right place with the right tools at   with advanced degrees. Successful
   the right time . . . .”                      completion of the programs will result in a
                                                pool of skilled candidates capable of ﬁlling
   As one of the largest civilian employers
                                                critical vacancies within the organization.
   in the nation, the Postal Service faces a
   number of challenges in maintaining and      Proper succession planning is also critical
   motivating a quality workforce. The Postal   to retention and development. The Postal
   Service realizes that in order to achieve    Career Executive Service (PCES) was
   the goals laid out in its Transformation     established in 1979 and consists of two
   Plan, it must enhance its performance-       levels of leadership. Level 1 executives
   based culture. The Postal Service’s          are appointed by senior-level ofﬁcers
   overall goal in this area is to maintain     and include district and bulk mail center
   an accountable, motivated and diverse        managers. Level 2 senior-level ofﬁcers
   workforce empowered to maximize              are appointed by the postmaster general
   performance in a safe and secure work        and include functional vice presidents in
   environment. The Postal Service has          Headquarters, area vice presidents and the
   strategies to improve the performance-       deputy postmaster general.
   based culture, the size and quality of
                                                The Postal Service initiated its corporate
   its workforce, safety measures and
                                                succession planning process in 1994
   employee attitudes.
                                                to identify a diverse pool of potential
                                                successors for PCES positions and
                                                to promote their development for
   RETENTION, RECRUITMENT                       leadership roles in the organization. The
   AND DEVELOPMENT                              planning process was also to provide
   The Postal Service is the second-            a mechanism for building diversity into
   largest civilian employer in the nation,     the leadership of the organization.
   and Fortune magazine recently ranked         The process includes many features
   the Postal Service as the fourth-largest     identiﬁed as best practices for successful
   employer in the world. Fortune also          organizations.
   ranked the Postal Service as one of the      It should be noted, however, that the
   top ten best places to work in America.      President’s Commission recommended
   More recently, a survey conducted by         the Postal Service restructure its
   an independent think tank that studies       management to eliminate redundant
   information issues in business and           positions and geographical divisions and
   government found that the Postal Service     to standardize and clarify job functions.
   was one of the public’s most trusted         It also recommended the Postal
   government agencies.                         Service conduct a review of the entire
   In its Five-Year Strategic Plan FY 2004-     management structure, size and cost to
   2008, the Postal Service reported that       determine whether each component is
   it does not have a retention problem         necessary and consistent with the best
   and that employees who are eligible to       practices of the private sector.



                                                                                     October 1, 2003 - March 31, 2004 | 17
                           PAY-FOR-PERFORMANCE                                       WORKPLACE ENVIRONMENT
                           The Postal Service is on track toward                     Relationships between postal
                           realizing its strategic goal of creating a                management, employees and unions
                           performance-based culture, particularly                   have improved over the recent past. This
                           for non-bargaining unit employees. It                     was evident when the Postal Service and
                           has implemented a pay-for-performance                     its four major unions reached negotiated
                           system for 800 executives, to improve                     agreements through collective bargaining,
                           operations and achieve goals in FY                        thereby avoiding arbitration for the ﬁrst
                           2003. In FY 2004, it will evaluate the                    time since 1987.
                           non-bargaining employees using this
                                                                                     In FY 2003, the Postal Service made
                           system. This system is expected to create
                                                                                     managers accountable for workplace
                           managerial accountability for reducing
                                                                                     environment issues through the pay-
                           the number of grievances, arbitrations
                                                                                     for-performance system. Area and
                           and equal employment opportunity
                                                                                     district managers are scored on their
                           complaints and to improve safety.
                                                                                     achievements to help improve workplace
                           According to the Postal Service’s                         relationships and to participate in
                           November 2003 Transformation Plan                         improvements. This includes their
                           Progress Report, the new pay system is                    ability to resolve grievances and equal
                           based solely on performance evaluations.                  employment opportunity complaints.
                           There are no automatic or across-the-
                                                                                     Postal Service statistics indicate that
                           board pay increases for executives or
                                                                                     the number of new grievances ﬁled and
                           non-bargaining employees. All pay actions
                                                                                     the number of backlogged grievances
                           should be made within a salary structure
                                                                                     have declined. For example, the Postal
                           that is market-based, following an
                                                                                     Service and its unions have reduced the
                           independent and comprehensive market
                                                                                     total number of grievances from 236,899
                           analysis of postal positions.
                                                                                     ﬁled in FY 2002 to 198,525 ﬁled in FY
                                                                                     2003. In addition, it has reduced the
                                                                                     number of grievances in the backlog from




                                        The Postal Service has long realized that its organizational success depends on the
                                        efforts of postal employees.


18 | October 1, 2003 - March 31, 2004
                                                                                                                            GOAL 3: ENHANCE PERFORMANCE BASED CULTURE
110,695 to 42,545 for the same period.       statement of common business interests,
The OIG believes this is further evidence    similar to that negotiated with the NALC,
of improved relations. Speciﬁcally, the      be negotiated with the National Postal
National Association of Letter Carriers      Mail Handlers Union (NPMHU) and the
(NALC) and the Postal Service reduced        National Rural Letter Carriers Association
backlogged grievances by 95 percent,         (NRLCA). Postal Service management
from 18,634 to 931, between FY 2000          agreed that this would add value to their
and FY 2003. The American Postal             mutual interests and that they would
Workers Union (APWU) also ﬁled               discuss it with the respective unions.
signiﬁcantly fewer grievances in FY 2003
                                             The Postal Service requires that
(99,255) than it did in FY 2002 (138,104).
                                             each district maintain both a Threat
The OIG is conducting additional work
                                             Assessment Team and a Crisis
to determine the root causes of the
                                             Management Team to provide violence
grievances and the initiatives in place to
                                             awareness and sexual and workplace
further reduce them.
                                             harassment training, according to policy.
The Postal Service also improved             In addition, the Workplace Environment
communications between management            Improvement Advisory Committee
and its unions by working together to        established new, objective criteria to
produce manuals that provide a joint         identify troubled worksites and track the
understanding of the interpretation          progress of actions for remediation.
and administration of provisions of the
                                             Although management and unions
national agreements. The Postal Service
                                             continue to improve their working
believes this communication effort has
                                             relationships, some nagging issues
proven invaluable in reducing tension
                                             remain. For example, the reduction in
between labor and management on
                                             the total number of grievances ﬁled in FY
the workroom ﬂoor, as it eliminates
                                             2003 and the total number of grievances
disagreements over the meaning of the
                                             in the backlog should have a positive
provisions of the national agreements.
                                             impact on the costs associated with
The Postal Service believes its ability to
                                             grievances and arbitrations. However, the
produce such agreements is a “direct
                                             Postal Service does not maintain data
manifestation of the improving and
                                             on all such costs, as the Postal Service
maturing relationships” with postal
                                             contends it would be cost prohibitive to
labor organizations at the national
                                             track supervisor/manager work-hours.
level and the desire of all parties to
                                             As a result, identifying areas for potential
achieve “harmonious relations” at all
                                             costs savings could be difﬁcult.
organizational levels.
                                             Even though all costs related to
Also indicative of a maturing relationship
                                             labor-management issues cannot be
is an agreement with the NALC, signed
                                             determined, the Postal Service and the
in April 2003, to establish a joint task
                                             OIG have estimated that about $300
force to explore alternative delivery
                                             million per year is spent on these issues.
models that will successfully position
                                             For that reason, the OIG recommended,
the Postal Service as the premier
                                             in September 2003, that the Postal
provider of delivery services to every
                                             Service maintain and identify costs.
home and business in the nation. In
                                             The Postal Service agreed to modify
FY 2003, the task force considered the
                                             its Grievance and Arbitration Tracking
impact of business and technological
                                             System to capture more cost data. The
changes on delivery services and letter
                                             OIG will follow-up on the Postal Service’s
carriers and explored opportunities for
                                             efforts in this area, as part of its work to
change that will provide possibilities
                                             determine the root causes of grievances.
for greater revenue generation. The
OIG’s September 2003 report to postal        The OIG continues to receive allegations
management regarding relationships           from postal employees and Congress
with the unions recommended that a           about the existence of hostile work

                                                                                    October 1, 2003 - March 31, 2004 | 19
                           environments. The OIG has conducted            Preparedness Plan, Threat Assessment
                           inquiries into these allegations because of    and Consequences Management
                           the potential for violence in the workplace.   Assessment.
                           For example, from January 2003
                                                                          The Postal Service has also recently
                           through February 2004, the OIG wrote
                                                                          established the Ofﬁce of Emergency
                           approximately 20 responses to senators
                                                                          Preparedness (OEP). One of the OEP’s
                           and congressional representatives
                                                                          responsibilities is to continue efforts
                           related to allegations of hostile work
                                                                          to respond to Homeland Security
                           environments. Constituents who were
                                                                          presidential directives. The OEP is
                           either former or current Postal Service
                                                                          also in the process of implementing an
                           employees made the allegations. The
                                                                          Integrated Emergency Management
                           OIG substantiated that eight of the 20
                                                                          Plan (IEMP). The goal is to have one
                           allegations had merit and, in some cases,
                                                                          plan that will address responses to
                           the OIG recommended that climate
                                                                          all incidents/hazards. IEMP training is
                           assessments be undertaken. Postal
                           Service management then worked with            currently focused at the district and
                           the employees, union representatives           installation level—speciﬁcally, those
                           and the OIG to ensure the issues were          sites receiving the Biohazard Detection
                           resolved.                                      System. The IEMP will be integrated
                                                                          into the Postal Emergency Management
                           The OIG also partnered with the                System (PEMS), which enables real time
                           Workplace Environment Improvement              data entry, analysis and response to
                           ofﬁce to provide Hotline information on a      emergency incidences both natural and
                           monthly basis to help managers identify        man-made. The OIG is preparing to audit
                           locations that may need assistance in          the IEMP process, including the PEMS.
                           improving their workplace environment.
                           According to the Postal Service, from          The Postal Service realizes that
                           FY 2002 to the end of FY 2003, the             emergency preparedness is constantly
                           number of troubled worksites has been          changing as new threats appear. With
                           reduced from 39 to 14. Efforts to reduce       that in mind, it is continuing to evaluate
                           the number of troubled worksites will          new technologies for detection of
                           continue into FY 2004.                         other biohazards and toxins. These
                                                                          technologies could expand the Postal
                           One recent investigation involving             Service’s detection capabilities and
                           workplace environment concluded that           reduce risk.
                           the allegations against a Texas district
                           manager for reprisal actions were
                           unfounded; however, it was determined
                           that the postmaster who made the
                                                                          WORKFORCE PROFILE
                                                                          In its report to Congress, the President’s
                           initial allegations had himself engaged in
                                                                          Commission stated that the size of the
                           improper management conduct.
                                                                          Postal Service’s workforce determines
                                                                          the costs of the workforce. The
                                                                          Commission also stated the success of
                           EMERGENCY PREPAREDNESS                         the Postal Service’s transformation will
                           The Postal Service has developed
                                                                          hinge on its ability to successfully deploy
                           initiatives to ensure its readiness in the
                                                                          and motivate a talented, capable, and
                           event of another emergency, such as
                                                                          nimble workforce, of a size appropriate
                           the anthrax attacks of October 2001.
                                                                          to the future postal needs of the nation.
                           The OIG found that the Postal Service
                                                                          Essential to this process is the ability
                           is doing a good job of implementing its
                                                                          to determine the right size of the postal
                           Biohazard Detection Systems, Ventilation
                                                                          workforce and ensure appropriate
                           and Filtration Systems and Irradiation of
                                                                          ﬂexibilities in its deployment.
                           the Mail initiatives. The OIG is continuing
                           to monitor these initiatives and is            In its recommendations, the Commission
                           reviewing the Postal Service’s Emergency       stated that 47 percent of the current
20 | October 1, 2003 - March 31, 2004
                                                                                                                               GOAL 3: ENHANCE PERFORMANCE-BASED CULTURE
career employees would be eligible             force. For the fourth straight year, Fortune
for retirement by 2010, and the Postal         magazine recognized the Postal Service
Service should take advantage of this          as a leader in diversity, naming it one of
unique “attrition opportunity” to right-size   the “50 Best Companies for Minorities.”
and realign its workforce with minimal
                                               The Postal Service’s Diversity
displacement.
                                               Development Ofﬁce was established
The Postal Service has made a good start       to build a motivated, productive and
in reducing its workforce through attrition.   inclusive workforce. This ofﬁce focuses
One result has been the reduction of           on diversity in workforce management,
62,000 employees, since the beginning of       promotions, developmental activities and
FY 2002. In addition, the Postal Service’s     succession planning.
complement planning efforts have
                                               Realizing the challenges the Postal
improved with the establishment of ﬁeld
                                               Service faces, as identiﬁed in the April
complement coordinators. The workforce
                                               2002 Transformation Plan, the Postal
reduction should continue as the Postal
                                               Service’s Diversity Development Ofﬁce
Service takes advantage of limited
                                               has four key initiatives to help it achieve its
early retirement offers and less need for
                                               mission and be responsive to the diverse
temporary, part-time workers, as career
                                               needs of its customers and employees:
employees use technology to perform
their work more efﬁciently.                    ■   Ensure representation of all groups
                                                   at all levels.
Also, the Postal Service has, or plans to
deploy, complement planning tools that         ■   Achieve a harassment-and
it believes will give managers the ability         discrimination-free environment.
to plan, adjust and track complement,          ■   Enhance workforce management.
as well as project complement needs.
These tools should also determine the          ■   Strengthen customer and community
right people and skills necessary to adjust        relations.
to current mail volumes and the changing
                                               In September 2002, the OIG reported
environment.
                                               that the Postal Service had established a
The Postal Service is still constrained,       corporate succession planning process for
however, by labor agreements that can          ﬁlling vacant PCES positions, and that the
create inﬂexible work arrangements. The        process included many features the OIG
President’s Commission recognized that         identiﬁed as best practices for successful
inﬂexible work arrangements “clutter the       organizations. The OIG also found the
path” to a fundamental overhaul of the         Postal Service had implemented diversity
Postal Service. The Commission is on           programs into the corporate succession
target in that the Postal Service needs        planning process, resulting in a slight
the ability to deploy workers, in the most     increase of some FY 2001 diversity statistics
efﬁcient manner possible, and needs to         and little to no change in others. In addition,
create a culture of excellence to ensure       the OIG found that Postal Service women
a successful transformation. Additionally,     and minority representation, at the PCES
the Commission correctly notes that in         level, could be improved when compared
future collective bargaining agreements        to the civilian labor workforce.
it is critical for postal management
to include the necessary ﬂexibility to
manage the size and deployment of the          VOICE OF THE EMPLOYEE
Postal Service workforce.                      The Postal Service has stated the two
                                               critical factors that enable Postal Service
                                               employees to achieve organizational
DIVERSITY DEVELOPMENT                          goals are a safe and fair workplace. The
Overall, the Postal Service’s workforce        two measurements used to determine
proﬁle generally matches the civilian labor    its accomplishments in this area are the

                                                                                       October 1, 2003 - March 31, 2004 | 21
                           Voice of the Employee (VOE) Survey,
                           and the Occupational Safety and Health
                                                                         OCCUPATIONAL SAFETY AND
                           Administration (OSHA) Illness and Injury      HEALTH ADMINISTRATION
                           rates.                                        SAFETY REPORTING
                                                                         The key measure used to determine
                           The VOE survey is intended to build
                                                                         the safety and security of employees,
                           upon the insights and suggestions of
                                                                         customers, and Postal Service facilities
                           the people closest to the work—the
                                                                         is the OSHA Injury and Illness rates.
                           employees. The survey captures overall
                                                                         The Postal Service became subject to
                           employee attitudes based on employee
                                                                         the reporting requirements of OSHA, as
                           responses to questions related to six
                                                                         a result of the Postal Employee Safety
                           key workplace issues—performance
                                                                         Enhancement Act, in 1988.
                           recognition, accountability, exclusion,
                           sexual harassment, being treated with         OSHA deﬁnes an injury or illness as an
                           dignity and respect, and workplace            abnormal condition or disorder including,
                           communication. Employee participation in      but not limited to, cuts, fractures, sprains
                           the survey is voluntary and anonymous,        or amputations. Illnesses include both
                           and an independent contractor handles         acute and chronic illnesses such as, but
                           the entire survey process.                    not limited to, skin diseases, respiratory
                                                                         disorders or poisoning. The Postal
                           In FY 2003, the VOE survey scores
                                                                         Service measures the OSHA Injury and
                           were included as part of the Postal
                                                                         Illness rates annually to ensure that
                           Service’s pay-for-performance system.
                                                                         employees and customers are provided a
                           The scores were used to determine
                                                                         safe and secure environment.
                           area vice president and district manager
                           achievements that help improve
                           workplace relationships. Areas and
                           districts are required to improve their VOE
                           scores from year to year.




22 | October 1, 2003 - March 31, 2004
GOAL 4: GROW REVENUE
   To increase revenue, the Postal Service           modernization. Pricing innovation is
   must enhance core services and provide            key to its efforts to maintain stable and
   greater value to its customers. To do             affordable rates. One pricing change
   this, the Postal Service must develop             underway is the Negotiated Service
   and implement new features and other              Agreement (NSA) with a ﬁnancial
   relevant product enhancements to its              institution.
   core mail and mail-related services; and
                                                     An NSA is a contractual agreement
   must seek new revenue sources from
                                                     between the Postal Service and a
   innovative applications of new technology
                                                     customer that provides pricing incentives,
   or by leveraging its sizeable infrastructure.
                                                     in exchange for a shift in behavior by the
   Working within the current structure, the         customer that beneﬁts the Postal Service.
   Postal Service’s basic approach to revenue        In many cases the changes in behavior
   generation begins with continued service          will create a substantial increase in First-
   improvement while providing rate stability        Class or Standard Mail volume.
   and the lowest prices possible. At the
                                                     The President’s Commission cited NSAs
   same time, the Postal Service will increase
                                                     as one of the most promising new areas
   the value of the mail by enhancing its
                                                     of exploration for the Postal Service.
   products and services.
                                                     These agreements could beneﬁt the
   Most of this strategic goal falls to the          Postal Service by fostering overall cost
   marketing function within the Postal              efﬁciency and revenue growth. As such,
   Service. Over the past several years, this        the Commission believes NSAs are
   area has undergone many changes as it             entirely appropriate, given the Postal
   responded to the Postal Service’s need to         Service’s mandate to operate like a
   grow revenue. While some of its initiatives       business.
   have been successful, many have not.
                                                     The Postal Service is evaluating pricing
   For example, many of the eBusiness
                                                     improvements to better meet customer
   initiatives have ended and international
                                                     needs. Pricing initiatives like NSAs, as well
   mail volume has been declining. Over the
                                                     as other innovative pricing methods, will
   coming year, the OIG’s new marketing
                                                     allow the Postal Service to move gradually
   team will focus on helping the Postal
                                                     away from cost-based pricing to value-
   Service successfully grow revenue.
                                                     based pricing.
   The team will review new product
   development, innovative pricing options,          The OIG is reviewing the NSA with a
   sales force operations and effectiveness,         ﬁnancial institution to outline the process
   advertising programs and efforts to               involved in developing, approving, and
   enhance the usefulness, accessibility and         implementing the NSA.
   awareness of core products.
                                                     The OIG is also reviewing the Postal
   As part of the strategic alliance, the OIG        Service’s International Customized Mail
   and the Postal Inspection Service will            Agreements to determine whether these
   work together to assist the Postal Service        agreements are proﬁtable and adequately
   in growing and protecting revenue, in             managed. These agreements are
   order to cover its costs and adhere to its        contracts between the Postal Service and
   mandate of providing universal service.           a mailer that agrees to meet a prescribed
                                                     annual minimum revenue or volume
                                                     requirement, in return for reduced rates.

   DEVELOP INNOVATIVE PRICING
   The Postal Service views pricing
   ﬂexibility as a critical tool for survival in a
   competitive market and a key to future

                                                                                           October 1, 2003 - March 31, 2004 | 23
                           PROVIDE CONVENIENT ACCESS                               convenient access; reduce customer
                                                                                   waiting time in line; reduce the cost of
                           TO PRODUCTS AND SERVICES                                selling postal products and provide easier
                           AND IMPROVE EASE OF USE                                 customer access to premium products.
                           Making Postal Service products that are                 Feedback from the market testing,
                           convenient, accessible, and easy-to-use                 performed by three different contractors,
                           maintains customer loyalty and directly                 indicated positive response from postal
                           impacts revenue. The Postal Service                     customers.
                           partners with commercial businesses
                                                                                   The Postal Service also leverages
                           to make its products and services more
                                                                                   technology by offering easy access to
                           convenient to customers. This promotes
                                                                                   postal information and products through
                           accessibility and improves ease of use.
                                                                                   its award-winning website,
                           Over the next several years, the Postal                 www.usps.com. Customers can use this
                           Service plans to improve its retail                     website to track mail, look up ZIP Codes
                           operations by developing lower-cost                     and purchase stamps 24 hours-a-day,
                           alternatives that provide similar or easier             7 days-a-week.
                           access to its household segment. For
                           example, Automated Postal Centers
                           (APCs) are designed to provide easy,                    ENHANCE PRODUCT
                           self-service access to postal products
                           while reducing the amount of retail labor.              AWARENESS
                           Almost any product or service that can                  As the Postal Service strives to
                           be purchased at the retail counter will                 grow revenue, it cannot assume
                           be available by using the APC, including                that customers are aware of all of its
                           mailing packages.                                       products and services. Therefore, new
                                                                                   advertising and promotional material
                           A review of the existing prototype APC                  have been developed to help customers
                           noted that it met the Postal Service’s                  take full advantage of postal products
                           objectives to provide customers with                    and services. The Postal Service has
                                                                                               redesigned portions of the
                                                                                               Domestic Mail Manual to
                                                                                               make it easier for households
                                                                                               and small businesses to
                                                                                               understand the postal rules
                                                                                               and mailing requirements of
                                                                                               the eBusiness Service used by
                                                                                               these groups. The Business
                                                                                               Service Network provides
                                                                                               business mailers a local point
                                                                                               of contact for resolving local
                                                                                               concerns.
                                                                                              The Postal Service also
                                                                                              sponsors many customer
                                                                                              forums to foster open
                                                                                              communication. These forums
                                                                                              include Postal Customer
                                                                                              Councils, at the local
                                                                                              level, for local issues; The
                                                                                              Mailers’ Technical Advisory
                                                                                              Committee that studies
                            Automated Postal Centers (APCs) are designed to provide
                                                                                              issues at the national level
                            easy, self-service access to postal products while reducing the   with major mailers; and the
                            amount of retail labor.                                           National Postal Forum, a

24 | October 1, 2003 - March 31, 2004
                                                                                                                              GOAL 4: GROW REVENUE
mailing community conference that             and relevant information to its customer
offers working sessions on postal issues      base, the Postal Service is targeting
and vendor exhibits on new products,          customers based on their distinct needs,
technology and systems.                       updating and standardizing sales material,
                                              developing customer-focused sales tools
The OIG has reviewed promotional
                                              and redesigning all national advertising
programs such as the sponsorship
                                              programs.
program. As the Postal Service develops
new advertising and awareness                 The Postal Service is developing business
programs, the OIG will evaluate these         partnerships with other organizations in
programs to ensure that reasonable            order to sell postal products and services
measures are in place to measure              internationally. It is also training its postal
effectiveness and that the program is         sales force to work with the sales staffs
achieving its intended goal.                  from foreign postal administrations to sell
                                              postal products and services.
In addition to ensuring customers
are aware of products and services,           The Postal Service is implementing Sales
the Postal Service needs to ensure            Support Solution, a new sales information
that employees are well-versed and            system. The new system will greatly enhance
consistent in applying postal rules.          sales effectiveness in evaluating additional
                                              revenue opportunities and identifying levels of
Mailers have raised concerns regarding
                                              service provided to the customer.
inconsistency of the acceptance
procedures of their mail at Bulk Mail Entry   According to the November 2003
Units.                                        Transformation Plan Progress Report,
                                              the Postal Service improved its marketing
One of the major concerns is the blurring
                                              effectiveness by targeting its marketing
of the line between First-Class and
                                              programs against key mailing segments.
Standard Mail. Technology has made
                                              Postal Service sales initiatives now focus
it affordable for advertisements to be
                                              on the highest growth opportunities, while
personalized, thus approaching the limits
                                              the Business Service Network provides
of distinguishing advertising mail from
                                              high levels of customer service.
First-Class Mail. As a result, some Postal
Service employees will accept the mail        Alignment of sales and service activities
as Standard Mail and some will reject         will lead to higher sales productivity, an
mail because the mail appears to meet         improved ability to meet customer needs
the requirements for First-Class Mail. The    and the development of better ways to
Mailers’ Technical Advisory Committee         help postal customers use the mail as a
has formed a new work group to examine        tool to meet their business objectives.
the Postal Service’s goal of providing
                                              The OIG will review the strategy and
consistent interpretation and application
                                              planning of the new sales force structure
of mailing standards and business mail
                                              to assure it is properly aligned and
acceptance procedures.
                                              adequately staffed with well-trained
The OIG will review the acceptance            and experienced sales personnel, to
process and the appeal procedure, to          market and sell its products and services
ensure consistency in accepting mail and      proﬁtably.
the effectiveness of the appeal process.



BUILDING A MORE EFFECTIVE
SALES TEAM
The Postal Service will work to maximize
sales of its products and maintain superior
service by effectively using its greatest
asset—its people. To provide more timely

                                                                                      October 1, 2003 - March 31, 2004 | 25
                           DEVELOP VALUE                                 The OIG contributes to building and
                                                                         maintaining the public’s trust in the Postal
                           ENHANCEMENTS BY APPLYING                      Service. Through independent audits
                           TECHNOLOGY TO CORE                            and investigations of fraud, waste and
                           PRODUCTS AND SERVICES                         misconduct within postal operations, the
                                                                         OIG assures the public that the Postal
                           Information is a valuable commodity in
                           the business world. The right information     Service is operated in an efﬁcient and
                           can mean the difference between being         effective manner. The OIG, through its
                           proﬁtable or showing a loss. According        ﬁnancial audits, provides assurance
                           to the November 2003 Transformation           that the ﬁnancial statements presented
                           Plan Progress Report, the Postal Service      to the public fairly represent the
                           is competing in an environment where          ﬁnancial position of the Postal Service.
                           information about the mail is valued as       By providing oversight of the Postal
                           much as the mail itself.                      Inspection Service, the OIG helps ensure
                                                                         that integrity and conﬁdence in the Postal
                           As a result, the Postal Service has           Inspection Service are preserved.
                           embarked on Intelligent Mail initiatives
                           that will provide customers with a            To maintain the integrity of the mail and
                           wealth of information on individual mail      ensure the conﬁdence and trust that
                           pieces. By using unique identiﬁer codes,      government agencies, businesses and
                           information about individual mail pieces      customers place in the Postal Service,
                           can be tracked and provided to users to       the Postal Inspection Service conducts
                           improve business decision-making.             investigations to reduce and deter
                                                                         criminal attacks on the mail, employees,
                           CONFIRM is an example of a postal             customers and property. Through its
                           product that uses unique identiﬁer codes.     security and law enforcement functions,
                           Mailers who subscribe to CONFIRM can          the Postal Inspection Service also works
                           receive information electronically to track   with other law enforcement agencies
                           their outgoing mailings or incoming reply     to reduce the use of the mail for such
                           mail to enhance customer service. An          crimes as consumer or business fraud
                           FY 2002 review of CONFIRM disclosed           and identity theft.
                           that 91 percent of users found the service
                           useful for their business.                    During this reporting period, efforts to
                                                                         protect postal products, services, assets
                           The OIG will continue to monitor new          and people have resulted in: the removal
                           systems from development to ﬁnal              of a Postal Service electronic technician,
                           deployment to ensure that the Postal          in South Dakota, for downloading and
                           Service is receiving a reasonable return      using unauthorized password decrypting
                           on investment and that the system is          software on a Postal Service server;
                           providing the beneﬁt intended.                payment of $3,000 in restitution by a
                                                                         Maryland postal employee who used
                                                                         an IMPAC card for personal gain; and
                           MAINTAIN TRUST                                the incarceration of a California woman
                           The Postal Service’s Five-Year Strategic      for perjury associated with her ﬁling a
                           Plan FY 2004-2008 states:                     fraudulent $1 million automobile accident
                                                                         lawsuit against the Postal Service.
                           “The value of mail is increased by the
                           trust that most Americans have in the
                           Postal Service. The Postal Service is
                           improving long-standing policies that will
                           preserve the privacy and security of the
                           information customers and others provide
                           and that the Postal Service uses in the
                           course of its operations.”



26 | October 1, 2003 - March 31, 2004
GOAL 5: PURSUE LEGISLATIVE CHANGE
   It has been more than a generation since       postal unions’ disagreement with the
   Congress passed major postal reform            Commission’s collective bargaining
   legislation, the Postal Reorganization         process recommendations.The
   Act of 1970, which created the present-        Commission’s report, issued on July 31,
   day Postal Service. The reforms were           2003, emphasized the need for postal
   intended to de-politicize the Post             reform on a much larger scale.
   Ofﬁce Department, inject greater
                                                  Acknowledging the President’s call to
   professionalism into postal operations
                                                  make postal reform a top priority for the
   and give the Postal Service a mandate
                                                  108th Congress, the House Committee
   to operate like a business.
                                                  on Government Reform and the Senate
   Since then, there has been a revolution        Committee on Governmental Affairs
   in how the public exchanges information.       each held a series of hearings. At these
   The movement of communication from             hearings, the committees explored
   hard copy to electronic form, dubbed           the Commission’s recommendations
   “electronic diversion,” has led to a           and their own proposals. Members
   decline in First-Class Mail revenues. This,    of Congress heard testimony from
   coupled with the growth in new deliveries,     individuals representing customers,
   is a serious threat to the Postal Service’s    postal employees, postal management,
   ﬁnancial stability. A growing number of        competitors, the GAO, the administration,
   members of Congress and the mailing            the Postal Rate Commission and postal-
   community have stated that the postal          reliant businesses. While comprehensive
   business model is broken and argue             postal reform remains crucial, an
   that the handwriting is on the wall—if         emergent theme was the necessity
   Congress does not act soon, the Postal         to deal with two critical issues: the
   Service is headed for economic disaster.       funding requirement for the Civil Service
                                                  Retirement System escrow account and
   Believing that “the day of reckoning” is
                                                  the military retirement beneﬁts of postal
   upon us, in recent years several members
                                                  employees.
   of Congress have drafted and introduced
   postal reform bills. The legislation
   advanced approaches to modernizing
   the Postal Service to meet the needs of        CIVIL SERVICE RETIREMENT
   a changing society. The efforts of these       SYSTEM (CSRS) ESCROW
   concerned members were not widely
   supported by their colleagues, and the
                                                  ACCOUNT
                                                  When Congress became aware that the
   legislation eventually died.
                                                  Postal Service was on course to over-
   In December 2002, the President                fund its CSRS pension costs, Congress
   established the Commission on the Postal       passed Public Law 108-18, which
   Service. From January 2003 through             reformed the way the Postal Service
   July 2003, the Commission solicited            funded its CSRS pension obligations.
   comments from postal stakeholders.             Prior to passage of the Law, it was
   The Commission received many                   estimated that the Postal Service would
   comments and suggestions including             overpay the fund by $105 billion over the
   maintaining but also redeﬁning universal       life of CSRS primarily due to higher than
   service, improving productivity, more          expected interest earnings. However,
   pricing ﬂexibility, modifying the collective   this Law charged/transferred $27 billion
   bargaining process, ensuring the ﬁnancial      to the Postal Service to cover military
   transparency of the Postal Service, and        service beneﬁt costs, not included in
   providing management with greater              prior legislation, which reduced the
   ﬂexibility. Notable exceptions were four

                                                                                      October 1, 2003 - March 31, 2004 | 27
                           overpayment to $78 billion over the life      The OIG believes that taxpayers
                           of CSRS.                                      should pay the costs for military
                                                                         service beneﬁts—not Postal Service
                           Public Law 108-18 also provided that
                                                                         customers—and the liability, therefore,
                           the “cost savings”—the difference
                                                                         should be transferred back to Treasury.
                           between what would have been paid,
                                                                         It is not appropriate for Postal Service
                           if the law had not been enacted and
                                                                         customers to pay, through postage, for
                           the contributions made under the new          these costs when military service protects
                           legislation—be used to maintain current       all Americans. As such, all taxpayers have
                           postage rates through FY 2005 and             a responsibility to bear the costs of a
                           reduce outstanding debt in FY 2003 and        common defense through tax dollars. The
                           2004.                                         use of stamps to pay defense costs is, in
                           After FY 2005, the Postal Service is          essence, a “hidden tax” on Postal Service
                           required to place the amount of “cost         customers. The Postal Service would
                           savings” into a separate escrow account       also be the only federal agency, that is
                           that it cannot use—even for maintaining       required to assume the burden of paying
                           current postage rates or minimizing           this cost.
                           increases in rates—until otherwise
                           provided by law. The Postal Service has
                           proposed using these savings to fund          BASIC POSTAL REFORM
                           retiree health beneﬁts or to stabilize        LEGISLATION
                           postage rates.                                When Congress addresses postal reform
                           The Postal Service should be allowed to       legislation, the reforms described below
                           use savings created by the reduction in       could be undertaken, in addition to the
                           contributions to the CSRS fund to run its     funding issues discussed above, provided
                           operations, as it does with Postal Service    they are not enacted in free-standing
                           revenue. The monies generated from            legislation.
                           Postal Service revenues should not be         Workers’ Compensation Reform. The
                           subject to outside control, since these       Postal Service has a signiﬁcant workers’
                           revenues are essentially “other people’s      compensation liability. In both FY 2002
                           money,” not tax dollars, and should be        and FY 2003, the Postal Service incurred
                           subject to normal usage for operations        approximately $1.5 billion in workers’
                           and capital investment. Under its             compensation expenses. Given the
                           mandate to provide universal mail service,    Postal Service’s current $7.2 billion liability
                           the Postal Service should be allowed to       for workers’ compensation, there is an
                           operate in a business-like manner and be      urgent need to reconsider the Postal
                           able to decide whether and how these          Service’s obligations under the Federal
                           funds should be spent.                        Employees Compensation Act (FECA).
                                                                         The President’s Commission
                                                                         recommended that the Postal Service
                           MILITARY RETIREMENT                           be relieved from FECA so that totally
                           The legislative ﬁx also required a            disabled employees could be transitioned
                           change in funding pension beneﬁts by          to a regular retirement program which has
                           making the Postal Service responsible         been found to be less costly to the Postal
                           for funding the value of CSRS beneﬁts         Service. Speciﬁcally, the Postal Service
                           attributable to military service of its       should be allowed to transition individuals
                           employees. This legislation effectively       receiving workers’ compensation to
                           transferred $27 billion in military service   the Postal Service’s retirement plan,
                           pension costs from the Department of          at such time as the employee would
                           Treasury (taxpayers) to the Postal Service    have become eligible for retirement
                           (ratepayers).                                 notwithstanding the injury giving rise to


28 | October 1, 2003 - March 31, 2004
                                                                                                                                 GOAL 5: PURSUE LEFISLATIVE CHANGE
                                                    all of which present consequences
                                                    for protecting postal revenue. A
                                                    consolidation of ﬁndings will be prepared
                                                    to support legislative change and
                                                    operational effectiveness.
                                                    New Rate-Setting Procedures. The
                                                    President’s Commission recommended
                                                    replacing the existing rate-setting process
                                                    with an incentive-based system featuring
                                                    upper and lower price limits in which
                                                    the Postal Service would be free to set
                                                    rates based on business decisions. The
                                                    Postmaster General and the Chairman
                                                    of the Board of Governors testiﬁed that a
                                                    well-constructed price cap would include
                                                    an index for fuel and network expansion,
                                                    the actual growth in statutory beneﬁts
                                                    and employment costs. It is essential
                                                    that the Postal Service has the ﬂexibility
It has been more than a generation since Congress   to set rates that meet the needs of its
passed major postal reform legislation.             customers and hold up to the challenge of
                                                    its competitors. Rate-setting procedures
                                                    should be streamlined and considerably
the workers’ compensation beneﬁts.
                                                    shortened, to occur in far less time than
The Postal Service must be empowered
                                                    the current average time-frame.
to deal with its workers’ compensation
costs, in a manner that preserves                   Design Smaller, Stronger Postal
reasonable beneﬁts for injured workers,             Network. The President’s Commission
while not saddling it with unreasonable             recommended creating a Postal
costs. Reducing these costs can have                Network Optimization Commission
a major impact on improving the overall             (P-NOC), similar to the Defense Base
cost of postal operations.                          Closure and Realignment Commission,
                                                    which would make recommendations
Seeking to identify root causes for
                                                    regarding the consolidation and
accelerating costs, while the number of
                                                    rationalization of the Postal Service mail
new injury claims decreases, an Injury
                                                    processing and distribution infrastructure.
Compensation Working Group was
                                                    Recommendations of the P-NOC, once
created with a staff representing the
                                                    submitted to Congress by the President,
Health Care Fraud Group, Computer
                                                    would become ﬁnal, unless Congress
Assisted Assessment Team (CAATs),
                                                    disapproves them in a reasonable period
Audit, Postal Inspection Service, Health
                                                    of time.
and Resource Management and our
stakeholders to work collaboratively to             In addition, repealing existing statutes
identify, address and control increasing            limiting the Postal Service’s ability to
costs associated with the workers’                  close low-activity post ofﬁces, as the
compensation program.                               President’s Commission recommended,
                                                    would give the Postal Service needed
Initiatives have been implemented to
                                                    ﬂexibility to manage its facilities like
address concerns of provider and
                                                    private sector businesses. The Postal
claimant fraud, systemic issues related
                                                    Service must balance its mandate of
to the OWCP fee schedule and bill
                                                    providing universal mail service with
payment system known as Afﬁliated
                                                    carefully managing its costs.
Computer Services, and enhancing the
Postal Service’s operational efﬁciency,



                                                                                         October 1, 2003 - March 31, 2004 | 29
USPS OFFICE OF INSPECTOR GENERAL
ORGANIZATION CHART
                                                                            Inspector
                                                                             General



                                                                     Deputy Inspector
                                                                        General



                                                             Information                    Special
                                                             Technology                     Projects




  AIG Legal                 AIG
  Services                Mission                           AIG Investigations                                             AIG Audit
                          Support



                                                                                                            Audit Operations




                                                                            Deputy AIG                 Deputy AIG         Deputy AIG           Deputy AIG
Deputy General         Deputy AIG                Deputy AIG                                                                                    Technology,
   Counsel           Mission Support                                       Investigations               Financial         Operations &          Marketing
                                             Investigations East
                                                                               West                    Management        Human Capital         & Oversight

                                                   Strategic                                                               Network
Legal Services      Human Resources                                    Special Inquiries                Financial                           Inspection Service
                                                  Enforcement                                                             Operations–
                                                                                                       Statements                               Oversight
                                                                                                                          Processing


Congressional,         Administrative            Technical Crimes          Investigative                                    Network
FOIA & Hotline           Services                      Unit                 Operations            Field Operations         Operations–         Engineering
                                                                                                                            Logistics


                                                      Miami                    Dallas                 Supply
                        Investments                Field Ofﬁce              Field Ofﬁce            Management &           Human Capital         Marketing
                                                                                                     Facilities


                                                     Boston                   Denver                                                           Information
                       Performance                 Field Ofﬁce              Field Ofﬁce                                 Delivery & Retail
                                                                                                                                                 Systems


                                                    New York               Los Angeles                                                         Strategy &
                                                   Field Ofﬁce             Field Ofﬁce                                                        Performance


                                                   Philadelphia              St. Louis
                                                   Field Ofﬁce              Field Ofﬁce


                                                   Washington                Chicago
                                                   Field Ofﬁce              Field Ofﬁce



         30 | October 1, 2003 - March 31, 2004
USPS OFFICE OF INSPECTOR GENERAL
OFFICE LOCATIONS
           The OIG currently has more than 700 employees located in 10 ﬁeld ofﬁces as well as other
           locations nationwide.




           Seattle, WA




                                                                      October 1, 2003 - March 31, 2004 | 31
APPENDICES
                                          The Inspector General Act of 1978 re-                             related to the administration of U.S. Postal
                                          quires semiannual reports on the imme-                            Service programs and operations during
                                          diately-preceding six-month periods end-                          the reporting period.
                                          ing March 31 and September 30. These
                                                                                                            Over the last six-month time period,
                                          reports are sent to Congress and made
                                                                                                            the Postal Service agreed to recommen-
                                          available to the public.
                                                                                                            dations or proposed alternative corrective
                                          This report summarizes OIG activities and                         actions that, if implemented, could result
                                          illustrates signiﬁcant problems, miscon-                          in over $277 million in savings.
                                          ducts and deﬁciencies, along with rec-
                                                                                                            The appendices on the following pages
                                          ommendations and corrective actions,
                                                                                                            fulﬁll the requirements of the Act.




 APPENDIX A
 OVERVIEW
 For the period of October 1, 2003, through March 31, 2004

 OFFICE OF INSPECTOR GENERAL
 OIG audit teams conduct performance and ﬁnancial audits, evaluations and other reviews to address the business of the Postal Service. Each team issues audit reports (AR) or management
 advisory reports (MA) in accordance with the identiﬁed needs of the project.




                                QUANTIFIABLE POTENTIAL MONETARY BENEFITS
                                For the period of October 1, 2003, through March 31, 2004


                                                                      Number                                                     Recommend
                                 Principal                         of Reports               Questioned Unsupported                 Funds Put      Unrecoverable         Revenue
                                 Area                                  Issued                    Costs       Costs              To Better Use             Costs           Impact
                                 Manage Costs                             189             $197,232,283    $513,055               $78,706,060         $1,256,827         $264,374
                                 Enhance Performance-based Culture          9                       $0          $0                         $0                $0               $0
                                 Pursue Legislative Change                  1                       $0          $0                         $0                $0               $0
                                 TOTAL                                         199        $197,232,283         $513,055          $78,706,060          $1,256,827        $264,374




           32 | October 1, 2003 - March 31, 2004
                                                                                                                                                                      APPENDIX A
                                      REPORTS WITH QUANTIFIABLE POTENTIAL MONETARY BENEFITS

                                                                                                                Recommend
                                       Report Title                                Questioned    Unsupported       Funds Put   Unrecoverable
                                                                                        Costs          Costs   To Better Use           Costs         Revenue Impact

                                       MANAGE COSTS
DEFINITIONS
QUESTIONED COSTS                       Supply Management and Facilities
A cost that is unnecessary,
                                       Audit of Amended Cost Data Relating to
unreasonable, unsupported, or
                                       a Certiﬁed Price Adjustment Claim Sub-
an alleged violation of law,
                                       mitted by Evergreen Aviation Ground
regulation, contract, etc.
                                       Logistics Enterprise Incorporated
                                       CA-CAR-04-003; 01/07/2004                    $5,394,970           —               —                 —                    —
UNSUPPORTED COSTS
A cost that is not supported by
adequate documentation.                Audit of Billed Costs Submitted by Shaw
Unsupported costs are included         Environmental and Infrastructure, Inc.
with the amounts shown as              Under Contract Number GS-10F-0048J,
Questioned Costs.                      Delivery Order 483083-02-N-0099
                                       CA-CAR-04-004; 01/13/2004                   $15,086,078           —               —                 —                    —
FUNDS PUT TO BETTER USE
Funds that could be used more          Audit of Claimed Operating and Tax
efﬁciently by implementing             Costs Submitted by Jones Lang LaSalle
recommended actions.                   Americas, Incorporated for the Postal
                                       Service’s Lease of the Redwood City
UNRECOVERABLE COSTS                    Postal Facility
A cost that perhaps should not         CA-CAR-04-005; 01/28/2004                       $7,337            —               —                 —                    —
have been incurred and is not
recoverable.
                                       Audit of Firm Fixed Price Proposal
REVENUE IMPACT                         Submitted by Northrop Grumman Cor-
Amounts from revenue generat-          poration, Automation and Information
ing functions such as retail sales,    Systems, Under Solicitation Number
rent, leases or fees that were         3AAERD-03-A-1467
underpaid or not realized. In          CA-CAR-04-009; 02/27/2004                    $6,000,332           —               —                 —                    —
addition, this category includes
increased revenue from existing        Audit of Firm Fixed Price Proposals
functions and generating revenue       submitted by Siemens Dematic Mate-
from new sources.                      rial Handling Automation Division for
                                       the Automatic Tray Handling System
                                       Under Solicitation Number 3AAERD-
                                       03A-1778
                                       CA-CAR-04-006; 02/17/2004                   $11,997,263      $500,000             —                 —                    —

                                       Audit of Firm Fixed Price Proposal Sub-
                                       mitted by Siemens Dematic Postal Auto-
                                       mation L.P. as a Modiﬁcation to Contract      $137,349            —               —                 —                    —
                                       Number 512593-00-Z-2804
                                       CA-CAR-04-011; 03/16/2004


                                       Audit of Proposal Submitted by Siemens
                                       Dematic Postal Automation L.P. for the
                                                                                  $136,507,655           —               —                 —                    —
                                       Multi-Line Replacement Program
                                       IR-CAR-04-001; 10/16/2003




                                                                                                                      October 1, 2003 - March 31, 2004 | 33
                                                                                Recommend
Report Title                                 Questioned         Unsupported        Funds Put       Unrecoverable
                                                  Costs               Costs    To Better Use               Costs     Revenue Impact
Audit of Proposal Submitted by Siemens
Dematic Postal Automation L.P. for the
                                             $18,675,493                —                —                   —                  —
Ventilation and Filtration System
CA-CAR-04-001; 10/31/2003

Audit of Termination for Convenience
Proposal Submitted by Corporate Air
Under Contract Number AMOT 2203-                 $277,085               —                —                   —                  —
02 and AMOT 2003-03
CA-CAR-04-010; 03/16/2004

Financial Statements
Fiscal Year 2003 Postal Service Financial
Statements Audit - Eagan Information Tech-
nology and Accounting Service Center
FT-AR-04-010; 02/26/2004                           $180,209               —                    —               —                —
Fiscal Year 2003 Postal Service Financial
Statements Audit - San Mateo Information
Technology and Accounting Service Center
FT-AR-04-008; 02/24/2004                           $558,074               —                    —               —                —
Terminated Contract Stations
FT-MA-04-002; 02/11/2004                            $67,341               —                    —               —                —
Fiscal Year 2003 Financial Installation Audits
Concord Main Post Ofﬁce
FF-AR-04-008; 10/31/2003                            $13,055          $13,055                   —               —             $8,400
Dallas Main Post Ofﬁce
FF-AR-04-012; 11/26/2003                                    —             —             $2,148                 —                —
Fiscal Year 2004 Financial Installation Audits
Aurora Self-Service Postal Center
FF-AR-04-039; 02/04/2004                                    —             —                    —            $8,389              —
Cards n’ Such Contract Postal Unit
FF-AR-04-070; 02/24/2004                                    —             —                    —               —              $458
City of Industry Business Mail Entry Unit
FF-AR-04-082; 03/03/2004                                    —             —                    —               —             $8,387
Colorado Springs Business Mail Entry Unit
FF-AR-04-058; 02/19/2004                                    —             —                    —               —             $2,365
East Lansing Business Mail Entry Unit
FF-AR-04-061; 02/19/2004                                    —             —                    —               —             $3,762
Eatonton Business Mail Entry Unit
FF-AR-04-021; 01/08/2004                                    —             —                    —               —              $376
Fern Hill Contract Postal Unit
FF-AR-04-104; 03/30/2004                                    —             —                    —               —             $1,876
Hampton Village Contract Postal Unit
FF-AR-04-089; 03/09/2004                                    —             —                    —               —              $755
Martinsville Business Mail Entry Unit
FF-AR-04-105; 03/30/2004                                    —             —                    —               —              $555
Plaquemine Post Ofﬁce
FF-AR-04-107; 03/31/2004                                    —             —                    —               —            $46,166
South Bend Business Mail Entry Unit
FF-AR-04-030; 01/27/2004                                    —             —                    —               —             $1,150
Wacker Drive Station
FF-AR-04-018; 01/05/2004                                    —             —                    —               —             $4,513
Fiscal Year 2003 Financial Related Audits
Stamp Accountability and Controls Related
to Minnesota Diversiﬁed Industries, Inc.
FF-AR-04-015; 12/26/2003                                    —             —                    —          $370,976              —
Fiscal Year 2004 Financial Related Audits
Potential Improper and Erroneous Payments
FT-AR-04-001; 12/01/2003                         $2,014,030               —           $119,103                 —                —


         34 | October 1, 2003 - March 31, 2004
                                                                                                                   APPENDIX A
Network Operations - Logistics
Highway Network Scheduling - Great Lakes
Area
NL-AR-04-003; 03/29/2004                             —     —    $5,352,877               —                    —
Vehicle Maintenance Facilities - Chicago
District - Accidental Vehicle Damage Cost
and Vehicle Safety, Security and Appearance
NL-AR-04-002; 12/05/2003                             —     —    $1,200,212         $877,462                   —
Network Operations - Processing
Efﬁciency of Work Performed by Clerks in
the Columbia, Maryland, Business Mail Entry
Unit
NO-AR-04-002; 12/26/2003                             —     —   $ 1,388,363               —                    —
Efﬁciency of Work Performed by Clerks in the
Southern Maryland Business Mail Entry Unit
NO-AR-04-001; 12/24/2003                             —     —    $8,398,222               —                    —
Efﬁciency of the Oakland International
Service Facility and the Regatta Facility
NO-AR-04-007; 03/31/2004                             —     —   $17,013,959               —                    —
Efﬁciency of the San Francisco International
Service Center and the General Services
Administration Facility
NO-AR-04-006; 03/31/2004                             —     —   $44,261,283               —                    —
Efﬁciency of Work Performed by Clerks in the
Springﬁeld, Virginia Business Mail Entry Unit
NO-AR-04-004; 02/09/2004                             —     —     $969,893                —                    —
Express Mail Processing in the Los Angeles
District
NO-MA-04-001; 01/13/2004                             —     —           —                 —              $185,611
Military Mail Issues During Operation Iraqi
Freedom
NO-AR-04-003; 12/30/2003                        $316,012   —           —                 —                    —




                                                                      October 1, 2003 - March 31, 2004 | 35
 REPORT LISTING
 The following list of reports is grouped ﬁrst by Postal Service strategic management goals, second by category of review and year, if applicable,
 and then alphabetically by title.

 For the period of October 1, 2003, through March 31, 2004.

 MANAGE COSTS
   SUPPLY MANAGEMENT AND FACILITIES

 Audit of Amended Cost Data Relating to a           Audit of Firm Fixed Price Proposal Submitted       Audit of Proposal Submitted by Siemens
 Certiﬁed Price Adjustment Claim Submitted by       by Siemens Dematic Material Handling               Dematic Postal Automation L.P. for the
 Evergreen Aviation Ground Logistics                Automation Division for the Automatic Tray         Ventilation and Filtration System;
 Enterprise Incorporated;                           Handling System Under Solicitation Number;         CA-CAR-04-001; 10/31/2003
 CA-CAR-04-003; 01/07/2004                          3AAERD-03A-1778                                    Audit of Termination for Convenience Proposal
 Audit of Billed Costs Submitted by Shaw            CA-CAR-04-006; 02/17/2004                          Submitted by Corporate Air Under Contract
 Environmental and Infrastructure, Inc.;            Audit of Firm-Fixed Price Proposal Submitted       Numbers AMOT2203-02 and
 Under Contract Number GS-10F-0048J,                by Siemens Dematic Postal Automation               AMOT2003-03
 Delivery Order 483083-02-N-0099                    L.P. as a Modiﬁcation to Contract Number           CA-CAR-04-010, 03/16/2004
 CA-CAR-04-004; 01/13/2004                          512593-00-Z-2804;                                  Audit of Termination for Convenience
 Audit of Claimed Operating and Tax Costs           CA-CAR-04-011; 03/16/2004                          Settlement Proposal Submitted by Specialized
 Submitted by Jones Lang LaSalle Americas,          Audit of Fiscal Years 2004 through 2008            Technology Resources for the Stamp Adhesive
 Incorporated for the Postal Service’s Lease of     Forward Pricing Rate Proposal Submitted by         Research and Development Contract;
 the Redwood City Postal Facility;                  Siemens Dematic Postal Automation L.P.             CA-CAR-04-007; 02/20/2004
 CA-CAR-04-005; 01/28/2004                          CA-CAR-04-002; 11/19/2003                          Contract Management for the Curseen-Morris
 Audit of Firm Fixed Price Proposal Submitted       Audit of Proposed Rates Submitted by               Facility Cleanup and Modiﬁcation;
 by New York City Industries for the Blind Inc.     Lockwood Greene as part of                         CA-MA-04-003; 03/31/2004
 CA-CAR-04-008; 02/26/2004                          IDIQ Proposal;                                     Contracting Authority
 Audit of Firm Fixed Price Proposal Submitted       CA-CAR-04-012; 03/31/2004                          CA-MA-04-001; 11/19/2003
 by Northrop Grumman Corporation,                   Audit of Proposal Submitted by Siemens             Realty Asset Management Program
 Automation and Information Systems;                Dematic Postal Automation L.P. for the             CA-MA-04-002; 01/09/2004
 Under Solicitation Number                          Multi-Line Replacement Program;                    Use of Reverse Auctions – Headquarters
 3AAERD-03-A-1467                                   IR-CAR-04-001; 10/16/2003                          CA-AR-04-001; 02/26/2004
 CA-CAR-04-009; 02/27/2004



   FINANCIAL STATEMENTS
  Agreed-upon Procedures Report for Federal         Fiscal Year 2003 Postal Service Financial         Internal Controls Over the Recording and
  Agencies’ Centralized Trial Balance System        Statements Audit – Eagan Information              Reporting of Inbound Mail Volumes from
  Veriﬁcation, FT-AR-04-006; 01/29/2004             Technology and Accounting Service Center          Canada; FT-AR-04-002; 12/02/2003
  Agreed-upon Procedures Report for Federal         FT-AR-04-010; 02/26/2004                          Postal Service Board of Governors’ Travel
  Intragovernmental Transactions;                   Fiscal Year 2003 Financial Statements Audit –     and Miscellaneous Expenses for Fiscal
  FT-AR-04-009; 02/23/2004                          St. Louis Information Technology and              Year 2003 FT-AR-04-004; 01/15/2004
  Collection of Advances to United States           Accounting Service Center; FT-AR-04-007;          Postal Service Ofﬁcers’ Travel and
  International Air Carriers;                       02/11/2004                                        Representation Expenses for Fiscal
  FT-MA-04-001; 01/29/2004                          Fiscal Year 2003 Postal Service Financial         Year 2003; FT-AR-04-003; 01/15/2004
  Fiscal Year 2003 Postal Service Financial         Statements Audit - San Mateo Information          Terminated Contract Stations;
  Statements Audit – Washington, D.C.,              Technology and Accounting Service Center;         FT-MA-04-002; 02/11/2004
  Headquarters; FT-AR-04-005; 01/16/2004            FT-AR-04-008; 02/24/2004




   FISCAL YEAR 2003 FINANCIAL INSTALLATION AUDITS
  Burnsville Byerly’s Foods Contract Postal Unit   Hopkins Post Ofﬁce                                 Roseville Post Ofﬁce
  FF-AR-04-001; 10/21/2003                         FF-AR-04-007; 10/21/2003                           FF-AR-04-006; 10/21/2003
  Chicago Business Mail Entry Unit                 James C. Brown Jr. Facility                        St. Louis Main Ofﬁce Finance Unit
  FF-AR-04-011; 10/31/2003                         Post Ofﬁce;                                        FF-AR-04-010; 10/31/2003
  Concord Main Post Ofﬁce                          FF-AR-04-004; 10/15/2003                           San Antonio General Mail Facility
  FF-AR-04-008; 10/31/2003                         Longworth Post Ofﬁce Window                        Window Unit;
  Dallas Main Post Ofﬁce                           Operations;                                        FF-AR-04-009; 10/24/2003
  FF-AR-04-012; 11/26/2003                         FF-AR-04-063; 02/23/2004                           San Bernardino Processing and
  Hopkins Byerly’s Foods Contract Postal Unit Minneapolis Main Post Ofﬁce                             Distribution Center Window Service Unit;
  FF-AR-04-003; 10/21/2003                    FF-AR-04-005; 10/24/2003                                FF-AR-04-002; 10/14/2003
FISCAL YEAR 2004 FINANCIAL INSTALLATION AUDITS




            36 | October 1, 2003 - March 31, 2004
 FISCAL YEAR 2004 FINANCIAL INSTALLATION AUDITS




                                                                                                                                                APPENDIX A
Alameda Main Post Ofﬁce                     Hampton Village Contract Postal Unit       Plaza Station Self-Service Postal Center
FF-AR-04-029; 02/02/2004                    FF-AR-04-089; 03/09/2004                   FF-AR-04-036; 02/03/2004
American Fork Business Mail Entry Unit      Hiram Post Ofﬁce                           Powell Business Mail Entry Unit
FF-AR-04-040; 02/05/2004                    FF-AR-04-016; 12/26/2003                   FF-AR-04-078; 03/02/2004
Aurora Self-Service Postal Center           Hollow Rock Post Ofﬁce                     Reno Main Ofﬁce – Self Service Postal Center
FF-AR-04-039; 02/04/2004                    FF-AR-04-027; 01/16/2004                   FF-AR-04-094; 03/16/2004
Bensenville Business Mail Entry Unit        Itasca Business Mail Entry Unit            Revere Main Post Ofﬁce
FF-AR-04-067; 02/23/2004                    FF-AR-04-093; 03/15/2004                   FF-AR-04-110; 03/31/2004
Boiling Springs Post Ofﬁce                  Jackson Westland Station                   Richmond Main Post Ofﬁce
FF-AR-04-023; 01/14/2004                    FF-AR-04-054; 02/17/2004                   FF-AR-04-097; 03/16/2004
Breckenridge Post Ofﬁce                     Jefferson City Business Mail Entry Unit    Richwood Post Ofﬁce
FF-AR-04-014; 12/26/2003                    FF-AR-04-051; 02/27/2004                   FF-AR-04-074; 02/25/2004
Cards n’ Such Contract Postal Unit          Kennett Square Post Ofﬁce                  Ridgway Post Ofﬁce
FF-AR-04-070; 02/24/2004                    FF-AR-04-086; 03/04/2004                   FF-AR-04-017; 12/30/2003
Centerpointe Mall Branch                    Kilmer Lobby Branch                        Roanoke Business Mail Entry Unit
FF-AR-04-048; 02/10/2004                    FF-AR-04-024; 01/14/2004                   FF-AR-04-062; 02/23/2004
Central Plaza Contract Postal Unit          Lewisville Business Mail Entry Unit        San Francisco Plant and Distribution
FF-AR-04-076; 02/27/2004                    FF-AR-04-056; 02/17/2004                   Center - Self-Service Postal Center
City of Industry Business Mail Entry Unit   Liberty Business Mail Entry Unit           FF-AR-04-053; 02/17/2004
FF-AR-04-082; 03/03/2004                    FF-AR-04-055; 02/19/2004                   San Leandro Business Mail Entry Unit
Cocoa Post Ofﬁce                            Manasota Business Mail Entry Unit          FF-AR-04-087; 03/08/2004
FF-AR-04-019; 01/06/2004                    FF-AR-04-045; 02/09/2004                   Santa Ana Business Mail Entry Unit
Colorado Springs Business Mail Entry Unit   Martinsville Business Mail Entry Unit      FF-AR-04-028; 01/27/2004
FF-AR-04-058; 02/19/2004                    FF-AR-04-105; 03/30/2004                   Scooba Post Ofﬁce
Columbus Business Mail Entry Unit           McChord Air Force Base Post Ofﬁce          FF-AR-04-033; 01/28/2004
FF-AR-04-022; 01/12/2004                    FF-AR-04-064; 02/23/2004                   Sidney Business Mail Entry Unit
Deltona Boulevard Station                   Meijer Contract Postal Unit                FF-AR-04-096; 03/16/2004
FF-AR-04-013; 12/23/2003                    FF-AR-04-085; 03/03/2004                   Somerset Business Mail Entry Unit
East Hanover Business Mail Entry Unit       Mesa Business Mail Entry Unit              FF-AR-04-031; 01/27/2004
FF-AR-04-043; 02/04/2004                    FF-AR-04-025; 01/15/2004                   South Bend Business Mail Entry Unit
Hayward Business Mail Entry Unit            Mesquite Post Ofﬁce                        FF-AR-04-030; 01/27/2004
FF-AR-04-046; 02/10/2004                    FF-AR-04-042; 02/05/2004                   South Georgia Stamp Distribution
Highland Contract Postal Unit               Mineola Business Mail Entry Unit           FF-AR-04-112; 03/31/2004
FF-AR-04-072; 02/25/2004                    FF-AR-04-098; 03/16/2004                   Southhaven Main Post Ofﬁce
East Lansing Business Mail Entry Unit       Montgomeryville Business Mail Entry Unit   FF-AR-04-032; 01/27/2004
FF-AR-04-061; 02/19/2004                    FF-AR-04-080; 03/03/2004                   Stockholm Main Ofﬁce
Eatonton Business Mail Entry Unit           Mountain Lakes Business Mail Entry Unit    FF-AR-04-099; 03/18/2004
FF-AR-04-021; 01/08/2004                    FF-AR-04-059; 02/19/2004                   Sunrise Contract Station #6
Fairview Post Ofﬁce                         Muncie Downtown Station                    Contract Postal Unit
FF-AR-04-020; 01/05/2004                    FF-AR-04-077; 03/02/2004                   FF-AR-04-084; 03/03/2004
Fern Hill Contract Postal Unit              Naples Business Mail Entry Unit            Tampa Stamp Distribution Ofﬁce
FF-AR-04-104; 03/30/2004                    FF-AR-04-034; 01/28/2004                   FF-AR-04-092; 03/11/2004
Fort Wayne Stamp Distribution Ofﬁce                                                    Tempe Business Mail Entry Unit
                                            New Brunswick Business Mail Entry Unit     FF-AR-04-073; 02/25/2004
FF-AR-04-068; 02/23/2004                    FF-AR-04-103; 03/24/2004
Fredericksburg Business Mail Entry Unit                                                Thurmont Business Mail Entry Unit
                                            Omaha Business Mail Entry Unit             FF-AR-04-041; 02/05/2004
FF-AR-04-111; 03/31/2004                    FF-AR-04-071; 02/24/2004
Ft. Lauderdale Self Service Postal Center                                              Trenton Business Mail Entry Unit
                                            Orange Business Mail Entry Unit            FF-AR-04-057; 02/19/2004
FF-AR-04-091; 03/11/2004                    FF-AR-04-083; 03/03/2004
Ft. Myers Self-Service Postal Center                                                   Union Post Ofﬁce
                                            Paramus Main Ofﬁce                         FF-AR-04-044; 02/09/2004
FF-AR-04-090; 03/10/2004                    FF-AR-04-052; 02/17/2004
Glendale Business Mail Entry Unit                                                      Universal City Post Ofﬁce
                                            Peachtree Corners Station                  FF-AR-04-108; 03/31/2004
FF-AR-04-037; 02/04/2004                    FF-AR-04-026; 01/15/2004
Glenolden Post Ofﬁce                                                                   Wacker Drive Station
                                            Pelham Business Mail Entry Unit            FF-AR-04-018; 01/05/2004
FF-AR-04-069; 02/23/2004                    FF-AR-04-081; 03/03/2004
Goodspring Post Ofﬁce                                                                  Waldorf Business Mail Entry Unit
                                            Phoenix Business Mail Entry Unit           FF-AR-04-065; 02/23/2004
FF-AR-04-102; 03/25/2004                    FF-AR-04-101; 03/25/2004
Gordonsville Business Mail Entry Unit                                                  Westerville Business Mail Entry Unit
                                            Plano Business Mail Entry Unit             FF-AR-04-060; 02/19/2004
FF-AR-04-079; 03/02/2004                    FF-AR-04-047; 02/11/2004
Greenville, SC Business Mail Entry Unit     Plaquemine Post Ofﬁce
FF-AR-04-075; 02/27/2004                    FF-AR-04-107; 03/31/2004
Greenville, NC Business Mail Entry Unit     Platteville Business Mail Entry Unit
FF-AR-04-088; 03/08/2004                    FF-AR-04-035; 02/04/2004




                                                                                                        October 1, 2003 - March 31, 2004 | 37
FISCAL YEAR 2003 FINANCIAL RELATED AUDITS
                                                  Stamp Accountability and Controls Related to
Cost and Revenue Analysis
                                                  Minnesota Diversiﬁed Industries, Inc.
FF-AR-04-038; 02/10/2004
                                                  FF-AR-04-015; 12/26/2003


FISCAL YEAR 2004 FINANCIAL RELATED AUDITS

Compliance With the Bank Secrecy Act              Cost and Revenue Analysis –                    Cost and Revenue Analysis –
FF-AR-04-100, 03/30/2004                          Oakland International Service Center           South Georgia District
Cost and Revenue Analysis –                       FF-AR-04-066; 02/25/2004                       FF-AR-04-095; 03/16/2004
Central Illinois District                         Cost and Revenue Analysis –                    Cost and Revenue Analysis –
FF-AR-04-049; 02/10/2004                          San Francisco International Service Center     Van Nuys District
Cost and Revenue Analysis –                       FF-AR-04-050; 02/12/2004                       FF-AR-04-106; 03/30/2004
Hawkeye District                                  Cost and Revenue Analysis                      Potential Improper and Erroneous Payments
FF-AR-04-113; 03/31/2004                          Santa Ana District                             FT-AR-04-001; 12/01/2003
                                                  FF-AR-04-109; 03/30/2004                       Rate Case Development Process
                                                                                                 FT-OT-04-001; 01/29/2004



FISCAL YEAR 2003 PROTECTIVE REVIEWS

Blackstone Main Ofﬁce                             Coraopolis Post Ofﬁce                          Richmond Northside Post Ofﬁce
PR-MA-04-013; 10/30/2003                          PR-MA-04-003; 10/06/2003                       PR-MA-04-010; 10/17/2003
Butler Main Ofﬁce                                 Englewood Mail Processing Center               San Carlos Main Ofﬁce
PR-MA-04-008; 10/16/2003                          PR-MA-04-011; 10/22/2003                       PR-MA-04-001; 10/03/2003
Carrollwood Station                               Johnstown Main Post Ofﬁce                      Uxbridge Main Ofﬁce
PR-MA-04-006; 10/08/2003                          PR-MA-04-009; 10/17/2003                       PR-MA-04-012; 10/23/2003
Centennial Branch Post Ofﬁce                      Joliet Post Ofﬁce
PR-MA-04-004; 10/22/2003                          PR-MA-04-005; 10/08/2003
Cleveland, Tennessee Post Ofﬁce                   O’Fallon Post Ofﬁce
PR-MA-04-002; 10/07/2003                          PR-MA-04-007; 10/10/2003



FISCAL YEAR 2004 PROTECTIVE REVIEWS

Bethalto Post Ofﬁce                               Hillsborough, North Carolina,                  Mendota Main Post Ofﬁce
PR-MA-04-024; 01/12/2004                          Main Post Ofﬁce                                PR-MA-04-019; 12/12/2003
Chesapeake Beach Main Ofﬁce                       PR-MA-04-025; 02/12/2004                       North Chicago Main Post Ofﬁce
PR-MA-04-027, 03/18/2004                          Leonardtown Post Ofﬁce                         PR-MA-04-021; 12/22/2003
Cresaptown Branch                                 PR-MA-04-026; 03/05/2004                       Oak Hill Post Ofﬁce
PR-MA-04-015; 11/12/2003                          Manassas Downtown Station                      PR-MA-04-020; 12/18/2003
Edgewater Post Ofﬁce                              PR-MA-04-023; 12/31/2003                       Windsor Maine Post Ofﬁce
PR-MA-04-017; 11/25/2003                          Martinsville Post Ofﬁce                        PR-MA-04-018; 12/01/2003
Forney Main Post Ofﬁce                            PR-MA-04-014; 11/12/2003
PR-MA-04-022; 12/31/2003
Greenwood Village Post Ofﬁce
PR-MA-04-016; 11/19/2003




          38 | October 1, 2003 - March 31, 2004
                                                                                                                                                             APPENDIX A
ENGINEERING

Labor Scheduler Program Phase 1;                             Self Service Platform;
DA-MA-04-002; 02/06/2004                                     DA-MA-04-001; 12/18/2003

INFORMATION SYSTEMS
Advanced Computing Environment –                             Fiscal Year 2003 Information System Controls,   Online Payroll Application Access Controls
Vulnerability Assessment                                     Eagan, San Mateo and St. Louis Information      IS-AR-04-005; 03/31/2004
IS-AR-04-002; 01/06/2004                                     Technology and Accounting Service Centers       Security Vulnerability Assessment at the Host
Controls Over Wireless Communications                        IS-AR-04-001; 12/02/2003                        Computing Services,
Within the Postal Service                                    Information Systems Disaster Recovery Process   San Mateo, California
IS-AR-04-003; 01/13/2004                                     IS-AR-04-004; 03/10/2004                        IS-CS-04-002; 03/22/2004


NETWORK OPERATIONS - LOGISTICS

Highway Network Scheduling - Great Lakes Area                Vehicle Maintenance Facilities –                Vehicle Maintenance Facilities –
NL-AR-04-003; 03/29/2004                                     Chicago District – Accidental Vehicle           Fraudulent Damage Claim Practices
                                                             Damage Cost and Vehicle Safety,                 in the Greater Indiana District;
                                                             Security and Appearance;                        NL-AR-04-001; 12/05/2003
                                                             NL-AR-04-002; 12/05/2003

NETWORK OPERATIONS - PROCESSING

Efﬁciency of Work Performed by                               Efﬁciency of the Oakland International          Military Mail Issues During Operation
Clerks in the Columbia, Maryland,                            Service Facility and the Regatta Facility       Iraqi Freedom;
Business Mail Entry Unit;                                    NO-AR-04-007; 03/31/2004                        NO-AR-04-003; 12/30/2003
NO-AR-04-002; 12/26/2003                                     Efﬁciency of the San Francisco International    Network Integration and Alignment Models –
Efﬁciency of Work Performed by                               Service Center and the General Services         Independent Veriﬁcation and Validation;
Clerks in the Southern Maryland                              Administration Facility;                        NO-AR-04-005; 02/24/2004
Business Mail Entry Unit;                                    NO-AR-04-006; 03/31/2004
NO-AR-04-001; 12/24/2003                                     Express Mail Processing in the
Efﬁciency of Work Performed by                               Los Angeles District;
Clerks in the Springﬁeld, Virginia                           NO-MA-04-001; 01/13/2004
Business Mail Entry Unit;
NO-AR-04-004; 02/09/2004



ENHANCE PERFORMANCE-BASED CULTURE
HUMAN CAPITAL
Compendium of Prior Audits Addressing                        Postal Service’s December 2000 Equal            Postal Service’s Rehabilitation Program
the Postal Service’s Injury Compensation Program             Employment Opportunity Settlement Policy;       for the Long Beach, Los Angeles, and
HM-OT-04-002; 12/10/2003                                     HM-AR-04-003; 12/30/2003                        San Diego Performance Clusters;
Postal Service’s Death Beneﬁt Payments                       Postal Service’s Equal Employment               HM-AR-04-005; 02/04/2004
to Decedent’s Survivor(s) – Phase II;                        Opportunity Organizational Structure;
HM-MA-04-001; 01/30/2004                                     HM-AR-04-004; 01/08/2004
Paciﬁc Area’s Equal Employment Opportunity                   Postal Service’s Injury Compensation
Monetary Settlement Process;                                 Program – Past and Present;
HM-AR-04-002; 12/24/2003                                     HM-OT-04-001; 12/10/2003

NETWORK OPERATIONS - LOGISTICS

Conditions at Patterson Station in the Baltimore District;   Vehicle Storage – Robert F. Kennedy Stadium,
NL-MA-04-002; 02/23/2004                                     Washington D.C.;
                                                             NL-MA-04-001; 01/13/2004


PURSUE LEGISLATIVE CHANGE

Comparison of Retirement Beneﬁts to Workers’
Compensation Beneﬁts for Employees on the
Periodic Roll
HM-AR-04-001; 12/12/2003




                                                                                                                October 1, 2003 - March 31, 2004 | 39
APPENDIX B
FINDINGS OF QUESTIONED COSTS
For the period of October 1, 2003, through March 31, 2004
Questioned Costs: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etc.


OFFICE OF INSPECTOR GENERAL AND POSTAL INSPECTION SERVICE
As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

                                                                                                                                                          Unsupported Costs
                                                                                                                                                           Included In Ques-
Description                                                                                   Number of Reports                    Total Questioned Costs       tioned Costs
Reports for which no management decision was made at the beginning of the reporting
period                                                                                                           20                            $88,533,202      $12,320,162
Reports requiring management decision that were issued during the reporting period                               15                           $197,232,283         $513,055

TOTAL                                                                                                            35                           $285,765,485      $12,833,217

Reports for which a management decision was made during the report period (i + ii)                               13                          $191,593,566        $2,349,831
  (i) Value of recommendations agreed to by management                                                                                        $67,993,561        $1,760,557
  (ii) Value of recommendations that management did not agree                                                                                $123,600,005          $589,274
Reports for which no management decision was made by the end of the
reporting period                                                                                                 22                           $94,171,919       $10,483,386
Reports for which no management decision was made within six months of issuance
  (See Note 1 for a list of individual reports)                                                                   5                           $62,535,148        $8,414,595
Reports for which no management decision was made within one year of issuance
  (See Note 2 for a list of individual reports)                                                                   8                           $14,994,231        $2,055,736



Note 1 - Reports for which no management decision was made within six months of issuance:
                                                                                                                                                          Unsupported Costs
                                                                                                                                                                Included In
                                                                                                                                         Total Questioned       Questioned
Subject                                                                                  Case Number                  Report Date                   Costs             Costs
Audit of Equitable Adjustment Claim Submitted by STV, Incorporated                      IR-CAR-03-011                  9/30/2003                  $98,569                $0
Audit of Equitable Adjustment Proposal Submitted by Bell and Howell Mail and
Messaging Technologies                                                                 CA-CAR-03-014                      5/6/2003               $703,466                $0
Audit of Firm Fixed Price Proposal Submitted by Northrop Grumman
Security Systems, LLC, Automation and Information Systems, Under Solicitation
Number 512593-02-A-0353                                                                CA-CAR-03-015                      5/6/2003            $60,825,861        $8,414,595
Audit of Termination Settlement Proposal Submitted by Lockheed Martin
Distribution Technologies                                                               IR-CAR-03-010                   9/26/2003                  $95,663               $0
Supplemental Audit of Incurred Costs for Fiscal Year 1998 Submitted by
New Breed Corporation                                                                   IR-CAR-03-003                   7/15/2003                $811,589                $0
TOTAL                                                                                                                                         $62,535,148        $8,414,595




    40 | October 1, 2003 - March 31, 2004
                                                                                                                                                APPENDIX B
Note 2 - Reports for which no management decision was made within one year of issuance:
                                                                                                                         Unsupported Costs
                                                                                                                               Included In
                                                                                                        Total Questioned       Questioned
Subject                                                                    Case Number    Report Date              Costs             Costs

Contract Audit - Bell and Howell Mail and Messaging Technologies         CA-CAR-03-002    10/16/2002           $343,759                   $0
Contract Audit - D. L. Kaufman, Incorporated                             CA-CAR-03-011     2/11/2003         $4,028,935                   $0
Contract Audit - M.E.S. Incorporated                                     CA-CAR-02-045     6/28/2002         $1,053,263             $134,340
Contract Audit - M.E.S. Incorporated                                     CA-CAR-02-051     9/13/2002           $620,681             $187,271
Southwest Area Expenditures for Extra Highway Trips Using
Leased Equipment                                                          TR-AR-00-005     2/29/2000           $848,000                   $0
Terminated Station Contract                                               FT-MA-02-004      8/2/2002             $58,248             $58,248
United States Postal Service Warranty Repair of Tractors                  CA-AR-00-001     5/17/2000           $977,598                   $0
OFFICE OF INSPECTOR GENERAL TOTAL                                                                            $7,930,484             $379,859

Contract Audit; 181-1294644-AC(1)                                                         11/17/1999         $7,063,747           $1,675,877

POSTAL INSPECTION SERVICE TOTAL                                                                              $7,063,747           $1,675,877


COMBINED TOTAL                                                                                               $14,994,231           $2,055,736




                                                                                                        October 1, 2003 - March 31, 2004 | 41
APPENDIX C
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
For the period of October 1, 2003, through March 31, 2004

Funds Put to Better Use: Funds that could be used more efﬁciently by implementing recommended actions.

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value recommendations for funds that can be put to
better use by management.



OFFICE OF INSPECTOR GENERAL
Description                                                                                               Number Of Reports                     Dollar Value
Reports for which no management decision was made at the beginning of the reporting period*                                  11               $159,689,010
Reports requiring management decision that were issued during the reporting period                                            9                 $78,706,060
TOTAL                                                                                                                        20               $238,395,070

Reports for which a management decision was made during the report period (i + ii)                                            9                 $54,797,936
   (i) Value of recommendations agreed to by management                                                                                         $16,574,186
   (ii) Value of recommendations that management did not agree                                                                                  $38,223,750
Reports for which no management decision was made by the end of the reporting period*                                        11               $183,597,134
Reports for which no management decision was made within six months of issuance
  (See Note 1 for a list of individual reports)                                                                               1                 $10,577,367
Reports for which no management decision was made within one year of issuance
  (See Note 2 for a list of individual reports)                                                                               5               $105,072,333



Note 1 - Reports for which no management decision was made within six months of issuance:
                                                                                                                                  Recommend Funds Put to
Subject                                                                              Case Number             Report Date                      Better Use
Highway Network Scheduling - Eastern Area                                            TD-AR-03-015              9/30/2003                        $10,577,367

TOTAL                                                                                                                                           $10,577,367


Note 2 - Reports for which no management decision was made within one year of issuance:
                                                                                                                                  Recommend Funds Put to
Subject                                                                              Case Number             Report Date                      Better Use
Bulk Fuel Purchase Plan                                                              TR-AR-01-004              7/27/2001                         $15,918,035
Highway Network Scheduling - New York Metro Area                                     TD-AR-03-008              3/28/2003                            $287,981
New York Metro Area Operational Use of Trailers                                      TD-MA-03-001              1/29/2003                          $2,495,344
New York Metro Area Trailer Acquisition - Lease versus Buy                           TD-AR-03-009              3/31/2003                          $4,021,234
Trailer Lease Justiﬁcation                                                           TD-AR-02-002              3/29/2002                         $82,349,739
TOTAL                                                                                                                                           $105,072,333
*Included herein are amounts where management agreed to take the recommended corrective action but could not comment on some of the potential savings
until analyses were completed. The majority of identiﬁed savings were agreed to and decisions were reﬂected in a prior reporting period.




    42 | October 1, 2003 - March 31, 2004
                                                                                                                                                                                   APPENDIX D
APPENDIX D
REPORTS WITH SIGNIFICANT RECOMMENDATIONS PENDING CORRECTIVE ACTIONS
Through March 31, 2004


As required by the IG Act, the following pages include a summary of each audit report issued before the commencement of the reporting period for which no management decision
has been made by the end of the reporting period, an explanation of the reasons such management decision has not been made, and a statement concerning the desired timetable for
achieving a management decision on each report.




   OFFICE OF INSPECTOR GENERAL
        Issue        Number Of         Report                                                          Report
         Date        Recommen-         Title                                                           Number
                     dations

      9/29/1999             3          Emergency and Extra Trip Expenditures on Highway Routes         TR-AR-99-003

      2/29/2000             2          Southwest Area Expenditures for Extra Highway Trips Using       TR-AR-00-005
                                       Leased Equipment

      9/29/2000             2          Review of the United States Postal Inspection Service Budget    OV-AR-00-005
                                       Process
      4/18/2001             1          Network Security at the San Mateo Computer Operations Center    IS-AR-01-001

      4/30/2001             1          Inspection Service Support to Postal Service Threat             OV-AR-01-002
                                       Assessment Teams

      7/27/2001             5          Bulk Fuel Purchase Plan                                         TR-AR-01-004

      9/28/2001             1          Postal Inspection Service Fraud Against Government Program      OV-AR-01-004

      11/8/2001             1          Fiscal Year 2001 Information System Controls, Eagan,            IS-AR-02-001
                                       San Mateo, and St. Louis Information Technology and
                                       Accounting Service Centers

      2/22/2002             3          Review of the Facilities Management System for Windows          IS-AR-02-003

      3/29/2002             1          Review of Contracts Associated with Biohazard Threat            CQ-MA-02-002

      3/29/2002             1          Public-Key Infrastructure Initiatives by the Postal Service     EM-AR-02-009

      3/29/2002             2          Trailer Lease Justiﬁcation                                      TD-AR-02-002

       5/8/2002             2          Southwest Area’s Efforts in Obtaining Appropriate Chargeback    LH-AR-02-003
                                       Credits for Identiﬁed Wage Compensation Overpayment and
                                       Refundable Disbursements

       7/9/2002             6          Review of eBusiness Agreements                                  EM-AR-02-012

      7/10/2002             2          New York Metro Area Trailer Acquisition Requirements            TD-MA-02-003

      7/30/2002             3          Postal Inspection Service Health Examination Program            OV-AR-02-003(R)

       9/3/2002             2          Postal Service’s Corporate Succession Planning Process          LH-AR-02-004

      9/24/2002             6          Biohazard Detection System                                      DA-MA-02-001

      9/26/2002             1          Utility Payments to Commonwealth Edison                         FT-AR-02-015

      9/27/2002             3          Effectiveness of the Postal Service’s Asset Locator             FT-AR-02-017

      9/30/2002             2          Use of Noncompetitive Contracting Process for Tabbing           CA-AR-02-005
                                       Systems Purchases




                                                                                                                                 October 1, 2003 - March 31, 2004 | 43
                                            Number Of
                                Issue       Recommen-   Report                                                           Report
                                 Date       dations     Title                                                            Number
                                9/30/2002       2       Associate Supervisor Program in the Great Lakes Area             LH-AR-02-005

                               10/28/2002       2       New York Metro Area Trailer Acquisition - Safety and Length      TD-AR-03-001

                                1/29/2003       2       New York Metro Area Operational Use of Trailers                  TD-MA-03-001

                                1/30/2003       1       Fiscal Year 2002 Postal Service Financial Statements Audit -     FT-AR-03-008
                                                        St. Louis Information Technology and Accounting Service Center

                                1/30/2003       1       Sexual Harassment Prevention Measures in the Northern            LH-AR-03-003
                                                        Virginia and Richmond Districts – Capital Metro Operations

                                2/25/2003       1       Postal Automated Redirection System, Phase 1                     DA-AR-03-002

                                2/25/2003       2       Sexual Harassment Prevention Measures in the Albany and          LH-AR-03-004
                                                        Southeast New England Districts - Northeast Area

                                 3/5/2003       1       Sexual Harassment Prevention Measures in the Central Florida     LH-AR-03-005
                                                        and South Georgia Districts - Southeast Area

                                 3/5/2003       2       Sexual Harassment Prevention Measures in the Greensboro          LH-AR-03-006
                                                        and Harrisburg Districts – Eastern Area

                                 3/5/2003       1       Sexual Harassment Prevention Measures in the Dakotas and         LH-AR-03-007
                                                        Portland Districts - Western Area

                                3/12/2003       2       Address Change Service                                           TD-AR-03-004

                                3/18/2003       3       Sexual Harassment Prevention Measures in the Oakland and         LH-AR-03-008
                                                        Santa Ana Districts - Paciﬁc Area

                                3/19/2003       3       Vehicle Maintenance Facilities - Vehicle Inventory Control       TD-AR-03-005
                                                        Weaknesses in the Chicago District

                                3/25/2003       3       Sexual Harassment Prevention Measures in the Arkansas and        LH-AR-03-009
                                                        Rio Grande Districts - Southwest Area

                                3/28/2003       2       Work Performed by Business Mail Entry Employees in the           CQ-AR-03-001
                                                        Seattle, Minneapolis, and Des Moines Bulk Mail Centers

                                3/31/2003       3       Retail Data Mart System - Security Issues                        OE-AR-03-002

                                3/31/2003       2       Highway Network Scheduling - New York Metro Area                 TD-AR-03-008

                                3/31/2003       2       New York Metro Area Trailer Acquisition - Lease Versus Buy       TD-AR-03-009

                                6/13/2003       1       Postal Inspection Service Tracking of Investigative Workhours    SA-AR-03-003
                                                        and Activity

                                6/30/2003       4       Review of Facility Conditions at the Groton, Connecticut, Main   LH-AR-03-010
                                                        Post Ofﬁce

                                7/31/2003       2       Efﬁciency of Work Performed by Business Mail Entry Clerks        AO-AR-03-001
                                                        Within the Los Angeles District

                                8/21/2003       2       Propriety of Postal Service Utility Payments                     FT-AR-03-011

                                 9/8/2003       2       Capping Report on the Postal Service’s Sexual Harassment         LH-AR-03-011
                                                        Prevention Measures in 18 District Ofﬁces




44 | October 1, 2003 - March 31, 2004
                                                                                                         APPENDIX D
  9/8/2003   1   Voyager Card - Control Weaknesses - National Analysis             TD-AR-03-012

 9/10/2003   1   Retail Data Mart System - Data Integrity and Expected Beneﬁts     OE-AR-03-006

 9/25/2003   2   Efﬁciency of Work Performed by Business Mail Entry Clerks in      AO-AR-03-002
                 the San Francisco Business Mail Entry Unit

 9/26/2003   2   Postal Inspection Service Controls Over Firearms –                SA-AR-03-006
                 Reconciliation of Sturm, Ruger and Company, Inc. Firearms

 9/29/2003   1   Enhanced Carrier Route Standard Mail Worksharing Discounts        AC-AR-03-006

 9/30/2003   1   Inventory Management - Maintenance Stockrooms                     AC-AR-03-007

 9/30/2003   8   General Controls at the Engineering Research and                  IS-AR-03-008
                 Development Center

 9/30/2003   4   Postal Service and Union Labor Relations                          LH-AR-03-012

 9/30/2003   2   Highway Network Scheduling - Eastern Area                         TD-AR-03-015

 12/1/2003   1   Potential Improper and Erroneous Payments                         FT-AR-04-001

 12/2/2003   4   Fiscal Year 2003 Information System Controls, Eagan,              IS-AR-04-001
                 San Mateo, and St. Louis Information Technology and
                 Accounting Service Centers

 12/5/2003   1   Vehicle Maintenance Facilities - Fraudulent Damage Claim          NL-AR-04-001
                 Practices in the Greater Indiana District

 12/5/2003   3   Vehicle Maintenance Facilities – Chicago District –               NL-AR-04-002
                 Accidental Vehicle Damage Cost and Vehicle Safety, Security,
                 and Appearance

12/26/2003   1   Stamp Accountability and Controls Related to Minnesota            FF-AR-04-015
                 Diversiﬁed Industries, Inc.

  1/6/2004   1   Advanced Computing Environment – Vulnerability Assessment         IS-AR-04-002


 1/13/2004   2   Controls Over Wireless Communications Within the Postal           IS-AR-04-003
                 Service

 2/23/2004   1   Conditions at Patterson Station in the Baltimore District         NL-MA-04-002

 2/24/2004   3   Fiscal Year 2003 Postal Service Financial Statements Audit        FT-AR-04-008
                 - San Mateo Information Technology and Accounting Service
                 Center

 2/24/2004   1   Network Integration and Alignment Models - Independent            NO-AR-04-005
                 Veriﬁcation and Validation

 2/26/2004   1   Use of Reverse Auctions - Headquarters                            CA-AR-04-001

 3/10/2004   3   Information Systems Disaster Recovery Process                     IS-AR-04-004

 3/29/2004   3   Highway Network Scheduling - Great Lakes Area                     NL-AR-04-003

 3/30/2004   4   Compliance with the Bank Secrecy Act                              FF-AR-04-100

 3/31/2004   2   Efﬁciency of the San Francisco International Service Center and   NO-AR-04-006
                 the General Services Administration Facility

 3/31/2004   2   Efﬁciency of the Oakland International Service Facility and the   NO-AR-04-007
                 Regatta Facility




                                                                 October 1, 2003 - March 31, 2004 | 45
APPENDIX E
SIGNIFICANT MANAGEMENT DECISIONS IN AUDIT RESOLUTION
For the period October 1, 2003, through March 31, 2004


As required by the IG Act, the following pages discuss information concerning any signiﬁcant management decision with which the Inspector General disagrees and is currently
in audit resolution.


OFFICE OF INSPECTOR GENERAL
Postal Inspection Service Tracking of Investigative Workhours and Activity (SA-AR-03-003, 6/13/2003)

    Recommendation 1: We recommend the Chief Postal Inspector develop and implement a documented process to track total investiga-
    tive workhours for jacketed cases using existing Inspection Service Data Base Information System capabilities, which allows the Postal
    Inspection Service the ability to determine total workhours expended for individual area cases that resulted in jacketed cases.

    Agency Response: Postal Inspection Service was concerned that any estimates of attributed workhours expended in the preliminary
    stages of an investigation to a speciﬁc jacketed case would degrade the integrity of their internal reporting systems. The recommendation
    is in step 2 of the audit resolution process.




APPENDIX F
INVESTIGATIVE STATISTICS1
For the period of October 1, 2003, through March 31, 2004
To the fullest extent possible, Ofﬁce of Inspector General (OIG) investigative cases will be worked with the Postal Inspection Service. During this period, a number of cases were
investigated jointly and plans call for working the majority of cases together in the future. The OIG expresses its appreciation at the willingness of the Postal Inspection Service
to jointly work the strategic alliance with our Ofﬁce of Investigations.


OFFICE OF INSPECTOR GENERAL

Statistics
Arrests                                                            46
Information/Indictments                                            482
Convictions/Pretrail Diversions3                                   26
Administrative Actions
   Postal Service Employees                                      13
Fines, Restitution, and Recoveries                      $17,324,732
   Amount to Postal Service4                             $4,155,269



1
     Statistics include joint investigations with other federal law enforccement agencies.
2
     Includes 4 that occurred prior to the period but were not previously reported.
3
     Convictions reported in this frame may be related to arrests made in prior reporting periods.
4
     Amount included in Fines, Restitution and Recoveries.




       46 | October 1, 2003 - March 31, 2004
APPENDIX G




                                                                                                                                                                                         APPENDIX G
SUMMARY OF POSTAL SERVICE INVESTIGATIVE ACTIVITIES UNDER 39 USC 3013
For the period of October 1, 2003, through March 31, 2004


The Postal Reorganization Act requires the Postmaster General to furnish information on the investigative activities of the Postal Service on a semiannual basis. With passage of the
Deceptive Mail Prevention and Enforcement Act in December 1999, the Postal Service’s reporting obligations were changed.

The Act requires the Postal Service to submit its semiannual report on investigative activities to the Ofﬁce of Inspector General rather than to the Board of Governors, expands the
subject matter that must be reported, and revises the reporting schedule to coordinate with the OIG Semiannual Report to Congress. The information in the report includes actions
directed at combating crimes involving the mail; costs and expenditures devoted to Postal Service investigative activities; use of subpoena power; and any additional information the
OIG may require.


POSTAL INSPECTION SERVICE
The Postal Service reports to the Ofﬁce of Inspector General information related to investigative activities designed to protect the public against unscrupulous mailers perpetrating
fraudulent schemes. The following information summarizes the administrative and judicial actions initiated and resolved during the reporting period. These actions include the issu-
ance of cease and desist orders directed to mailers, actions to intercept payments fraudulently induced, and orders seeking to intercept fraudulent mailings.

                                                                    Complaints                   Consent                             False                               Cease &
                                                                    Filed                        Agreements                          Representation                      Desist
                                                                                                                                     Orders                              Orders
Type of Scheme
Advance fee                                                            6                              5                                   —                                 5
Boiler rooms/Telemarketing                                             —                              —                                   —                                 1
Rebate fraud                                                           1                              1                                   —                                 1
False billings                                                         3                              2                                   2                                 3
Fraud – Internet Schemes                                               1                              1                                   1                                 1
Lotteries (Foreign and Domestic)                                       8                              —                                   —                                 —
Work at home                                                           8                              7                                   4                                 7

TOTAL                                                                  27                              16                                 7                                 18


Other Adminstrative Actions
Administrative Action Requests                                 30
Temporary Restraining Orders Requested                          3
Temporary Restraining Orders Issued                             3
Civil Injunctions (1345) Requested                              1
Civil Injunctions (1345) Issued                                 1
Withholding Mail Orders Issued                                 21
Voluntary Discontinuances                                      48


Postal Service Administrative Subpoena Authority
The Postal Service reports to the Ofﬁce of Inspector General information on the number of cases in which the Postal Service issued administrative subpoenas in connection with
deceptive mailing. The following section identiﬁes the number and nature of cases in which the Postal Service exercised this authority to request relevant business and associated
records.

Case No.                       Date Issued                             Scheme
USPS 04-001                    10/22/2003                           Failure to Render
USPS 04-002                    12/12/2003                           Failure to Render
USPS 04-003                    12/12/2003                           Failure to Render
USPS 04-004                    12/16/2003                           Deceptive Sweepstakes



Financial Reporting On Investigative Activities
The Postal Service reports to the Ofﬁce of Inspector General information related to the amount of ﬁnancial expenditures and obligations incurred pursuing the investigative activities
of the Postal Service. Information related to these activities is summarized below.

Type                                                            Semiannual Report
Personnel                                                          169,542,466
Nonpersonnel                                                        40,454,009
TOTAL                                                                209,996,475
Capital Obligations                                                    9,912,689




                                                                                                                                 October 1, 2003 - March 31, 2004 | 47
Other Investigative Activities
The Postal Service also reports to the Ofﬁce of Inspector General additional information related to signiﬁcant investigative activities and other investigative matters. This section
outlines a number of signiﬁcant investigative activities the Postal Service has initiated and is pursuing, to include the Internet Crimes Complaint Center and the Deceptive Mail Enforce-
ment Team. Ofﬁce of Inspector General criminal statistical information is summarized in Appendix F.


International Affairs Group
The Postal Inspection Service is an active participant in international investigations and security initiatives. The International Affairs Group targets initiatives to improve the safety,
security and reliability of international mail for the United States. The group develops strategies and initiatives to improve quality of service and security of international mail for the
190 member countries of the Universal Postal Union. The Postal Security Action Group of the Universal Postal Union, which is chaired by the Chief Postal Inspector, identiﬁes and
resolves problems and issues affecting the safety, security and integrity of international mail.


Deceptive Mail Prevention
The Deceptive Mail Prevention and Enforcement Act, which became effective April 12, 2000, subjects violators to civil penalties in addition to Cease and Desist Orders and False
Representation Orders. To support this new law, the Postal Inspection Service created the Deceptive Mail Enforcement Team to identify violators and ensure swift, appropriate, inves-
tigative attention. This ﬁscal year to date, 27 questionable promotions have been investigated by postal inspectors.


Internet Crimes Complaint Center (Ic3)
The Internet is teeming with schemes, and swindlers have learned how easy it is to exploit innocent victims. Fraud on the Internet often results in mail fraud, as cyber scammers
use the mail to receive payments or ship items. As a result of the growing trend among fraudsters to use the Internet, the Postal Inspection Service participates in a multi-federal
project known as the Internet Crimes Complaint Center, which was established by the Federal Bureau of Investigation and National White Collar Crime Center. The project is aimed at
stemming Internet fraud by gathering, analyzing and referring Internet complaints. The Internet Crimes Complaint Center offers a central repository for complaints related to Internet
fraud.




APPENDIX H
CLOSED CONGRESSIONAL AND BOARD OF GOVERNORS INQUIRIES
For the period October 1, 2003, through March 31, 2004


This appendix lists the 43 Congressional and Governors inquires the OIG closed during this reporting period. The OIG reviewed these inquiries to help identify
systemic issues and to determine the need for future postal-wide audits.


CONGRESSIONAL

IMPROVE SERVICE
Requestor                                   Allegations/Concern                                                                     Response Date

Senator, North Carolina                     Allegation of mail tampering.                                                           23-Oct-2003
Representative, California                  Allegation of difﬁculties with highway contract.                                        04-Nov-2003
Representative, California                  Request to review appeal concerning difﬁculties with highway contract.                  03-Dec-2003
State Representative, New York              Allegations of inefﬁciency and mismanagement at a post ofﬁce.                           22-Jan-2004
Representative, New York                    Allegations of deﬁciencies in the handling and delivery of mail and repercussions       12-Jan-2004
                                            as a result of voicing allegations.
Representative, Connecticut                 Concerns regarding an investigation.                                                    06-Feb-2004

MANAGE COSTS
Requestor                                   Allegations/Concern                                                                     Response Date

Representative, Missouri                    Request to review the justiﬁcation of bonuses for employees.                            9-Mar-2004

ENHANCE PERFORMANCE-BASED CULTURE
Requestor                                   Allegations/Concern                                                                     Response Date

  Senator, Connecticut                      Allegations of hostile work environment after ﬁling a whistle-blower complaint.         02-Oct-2003
  Senator, California                       Allegations of hostile work environment and improprieties of a postmaster.              17-Oct-2003
  Senator, California                       Allegations of hostile work environment.                                                06-Nov-2003




        48 | October 1, 2003 - March 31, 2004
                                                                                                                                                 APPENDIX H
ENHANCE PERFORMANCE-BASED CULTURE
Requestor                         Allegations/Concern                                                                  Response Date

  Representative, Michigan        Allegations of waste of funds and adverse personnel actions as a result of an        21-Oct-2003
                                  EEOC decision.
  Representative, Oregon          Allegations of a hostile work environment and managerial harassment.                 08-Oct-2003
  Senator, Louisiana              Allegations of hostile work environment.                                             06-Nov-2003
  Representative, California      Allegations of managerial harassment.                                                23-Oct-2003
  Representative, Louisiana       Allegations of hostile work environment.                                             06-Nov-2003
  Representative, Virginia        Allegations of hostile work environment.                                             06-Nov-2003
  Representative, Virginia        Allegations of hostile work environment.                                             30-Oct-2003
  Representative, Massachusetts   Allegations of discrimination, retaliation, and managerial harassment.               17-Oct-2003
  Representative, Virginia        Allegations of hostile work environment.                                             23-Oct-2003
  Senator, Utah                   Allegations of difﬁculties to ﬁnd permanent limited duty assignment.                 30-Oct-2003
  Senator, Virginia               Allegations of mail delay.                                                           23-Oct-2003
  Senator, California             Allegations of electronic fraud at a post ofﬁce.                                     06-Nov-2003
  Representative, California      Allegations of discrimination and hostile work environment.                          04-Feb-2004
  Senator, Illinois               Allegations of discrimination and improper promotions.                               27-Oct-2003
  Senator, Oklahoma               Allegations of discrimination at a post ofﬁce.                                       19-Nov-2003
  Senator, Iowa                   Allegations of a hostile work environment.                                           05-Dec-2003
  Representative, Ohio            Allegations of retaliation from ﬁling sexual harassment charges.                     11-Dec-2003
  Representative, Utah            Allegations of fraud, waste, and misconduct by a Postal Service manager.             04-Feb-2004
  Representative, Texas           Allegations of inappropriate use of contract labor.                                  30-Dec-2003
  Representative, Oregon          Allegations of a hostile work environment.                                           30-Jan-2004
  Representative, Virginia        Allegations of harassment and retaliation.                                           26-Feb-2004

GROW REVENUE
Requestor                         Allegations/Concern                                                                  Response Date
Senator, Texas                    Request to review procurement practices of the USPS for mailing supplies.            11-Dec-2003
Senator, Indiana                  Allegations of improper contract award.                                              19-Mar-2004
Representative, California        Allegations of managerial favoritism and improper funds management.                  13-Nov-2003

PURSUE LEGISLATIVE CHANGE
Requestor                         Allegations/Concern                                                                  Response Date
Representative, California        Request to perform an analysis of the Postal Service’s current service levels and    04-Mar-2004
                                  performance efﬁciency.

OVERSIGHT OF INSPECTION SERVICE
Requestor                         Allegations/Concern                                                                  Response Date
Senator, California               Allegations of improper investigation.                                               17-Mar-2004

OTHER SIGNIFICANT ISSUES
Requestor                         Allegations/Concern                                                                  Response Date
Senator, California               Allegation that a USPS-OIG agent caused undue stress on an individual.               22-Oct-2003
Senator, Louisiana                Allegations reimbursement for travel expenses not received.                          23-Oct-2003
Senator, Massachusetts            Review the termination of a contract with USPS-OIG.                                  06-Nov-2003
Representative, Massachusetts     Review the termination of a contract with USPS-OIG.                                  10-Nov-2003
Senator, Virginia                 Allegations disability accommodations not made for a USPS-OIG employee.              13-Nov-2003

GOVERNORS
Requestor                         Allegations/Concern                                                                  Response Date
Governor                          Allegations of delays in processing Workman’s Compensation claim.                    06-Jan-2004
Governor                          Review of Anthrax issues.                                                            30-Jan-2004




                                                                                                         October 1, 2003 - March 31, 2004 | 49
SUPPLEMENTAL INFORMATION
AUDIT SYNOPSES
                                MANAGE COSTS                                            Review of Military Mail During Operation Iraqi
                                                                                        Freedom, NO-AR-04-003
                                Efﬁciency of the San Francisco International            The Postal Service did not delay military mail from the
                                Service Center and General Services                     Persian Gulf region, and, in fact, did a commendable
                                Administration Facility (GSA), and the Oakland          job performing its responsibilities regarding military
                                                                                        mail. However, the Postal Service incurred over
                                International Service Facility and Regatta Facility,    $300,000 in additional labor costs to reprocess mail
                                NO-AR-04-006, NO-AR-04-007                              that the military had returned from the Persian Gulf
                                The Postal Service could avoid $61.2 million in         as undeliverable. Postal management alerted the
                                costs over 10 years, by reducing 145,000 work-          Department of Defense Military Postal Service of
                                hours at the San Francisco International Service        the issues identiﬁed in the report and was assured
                                Center (ISC) and the Oakland International Service      the necessary corrective measures will be taken to
                                Facility (ISF) and transferring mail processing,        preclude a recurrence of a similar episode.
                                including military surface mail, to the San Francisco
                                ISC and the Oakland ISF and closing the GSA and         Review of Vehicle Maintenance Facilities at
                                Regatta facilities.                                     Chicago District, NL-AR-04-002 and Greater
                                                                                        Indiana District, NL-AR-04-001
                                Express Mail Processing in the Los Angeles              The Chicago District incurred unnecessary repair
                                District, NO-MA-04-001                                  costs because personnel accidentally damaged
                                The Postal Service did not collect postage due          vehicles, or ofﬁcials did not always try to get
                                from some Express Mail packages originating in the      restitution from private parties. The district could
                                Los Angeles District. Additionally, some Express        save up to $1.2 million, over the next two years, if
                                Mail packages had missing acceptance data. As a         accidental damage is prevented or damage claims
                                result, the Postal Service may have lost a projected    are properly pursued. In the Greater Indiana District,
                                $185,600 in revenues, from February 2002 through        vehicle maintenance managers submitted improper
                                January 2003. In addition, the missing acceptance       damage claims to insurance companies. Inadequate
                                data makes it difﬁcult to respond to customer           controls were in place to detect the improperly
                                inquiries about the status of Express Mail packages.    submitted claims.
                                Postal Service management generally agreed with
                                OIG recommendations and has recovered $157,427          Reviews of Work at Southern Maryland, Columbia,
                                in revenue from previously unpaid Express Mail
                                                                                        Md., and Springﬁeld, Va., Business Mail Entry
                                packages.
                                                                                        Units, NO-AR-04-001, NO-AR-04-002, NO-AR-04-
                                Highway Network Scheduling — Great Lakes                004
                                                                                        The Southern Maryland, Columbia, Md., and
                                Area, NL-AR-04-003                                      Springﬁeld, Va., business mail entry units used
                                The Postal Service could save about $5.4 million        excessive hours to accept mailings. Management
                                over the term of existing Great Lakes Area              agreed to reduce work-hours by 20,240 hours at the
                                highway contracts by canceling or not renewing          Southern Maryland unit, 3,960 hours at Columbia,
                                72 unnecessary trips.                                   and 2,775 hours at Springﬁeld. These reductions
                                                                                        could produce cost avoidances of almost $10.8
                                Labor Scheduler Program Phase 1, DA-MA-04-002           million over 10 years.
                                The Labor Scheduler was effectively developed
                                and deployed to the pilot sites, however; we            Self Service Platform, DA-MA-04-001
                                recommended a review of the Phase 1 model results       The Self Service Platform will offer customers a
                                to capture realistic savings before the execution       broader range of Postal Service products, services
                                of the Decision Analysis Report (DAR) for Phase 2       and information through a state-of-the art vending
                                national deployment. Management agreed the Phase        platform with convenient and reliable access 24
                                2 DAR should be based on an accurate analysis of        hours-a-day, 7 days-a-week. However, the Postal
                                the Phase 1 model results.                              Service could improve system operations and
                                                                                        increase customer satisfaction by developing speciﬁc
                                Network Integration & Alignment Models, NO-AR-          instructions for lobby mailbox collection, identifying
                                04-005                                                  Express Mail acceptance times and providing multi-
                                The Postal Service had conducted limited veriﬁcation    language options for diverse customer populations.
                                and validation on Network Integration and Alignment
                                models, but they were not independently or
                                fully documented. The Postal Service had used
                                employees involved in the development process
                                to perform the veriﬁcation and validation.
                                                                                        Contract Reviews
                                                                                        The Defense Contract Audit Agency (DCAA)
                                                                                        performed 13 contract-related audits, during the
                                Online Payroll Application Access Controls DDE/         period, at the request of the Postal Service and the
                                DR-Interim Report, IS-AR-04-005                         OIG. The audits evaluated costs associated with
                                Eagan ASC management did not always properly            automated mail processing equipment, emergency
                                administer access to the Distributed Data Entry         response services for anthrax contamination,
                                (DDE) applications. Speciﬁcally, many Eagan ASC         architectural and engineering services and mailbags.
                                employees had access privileges that allowed them       DCAA also audited terminated contract costs; veriﬁed
                                to view their coworkers’ payroll data.                  billed costs; and determined whether forward pricing
                                                                                        rates were reasonable and operating and tax costs



    50 | October 1, 2003 - March 31, 2004
                                                                                                                                                 SUPPLEMENTAL INFORMATION
were allowable. The Defense Contract Audit Agency        they were unaware of the requirement. As a result,
(DCAA) audited veriﬁed billed costs; and determined      the Postal Service may not have been maximizing
whether forward pricing rates were reasonable and        its return on these assets. Management generally
operating and tax costs were allowable. The OIG          agreed with our ﬁndings and agreed to emphasize
considered most of the proposals acceptable for          the importance of identifying excess space. They
negotiating fair and reasonable rates and $194 million   stated the new National Prioritization Process and
was identiﬁed as potential contract costs savings.       Network Integration Alignment effort will help clarify
                                                         where excess space exists and where new space is
Contracting Authority, CA-MA-04-001                      needed. Management also enhanced the reporting
The Postal Service generally had adequate controls       process to include negative replies and will provide
over contracting authority for the commitment of         a standardized method for annual reporting and
funds for the 70 contracts reviewed. However, three      submission of excess space as it occurs.
of the16 contracting ofﬁcers reviewed did not always
meet requirements for qualiﬁcations and continuing       Terminated Contract Stations, FT-MA-04-002
professional education.                                  Of the 362 contract stations reviewed, four stations
                                                         were identiﬁed that no longer provided service
Curseen-Morris Facility Cleanup and Modiﬁcation,         for the Postal Service, but were still active in the
CA-MA-04-003                                             Accounts Payable Accounting and Reporting System
The Postal Service adequately managed contracts for      II. As a result, contractors received payments
the unprecedented cleanup and modiﬁcation of the         totaling $67,341 for services not performed. Postal
Curseen-Morris Processing and Distribution Center.       management took corrective action to terminate
In addition, the Postal Service implemented adequate     future payments for those contracts and stopped
internal controls to control costs and properly used     payment on non-cashed checks issued to the
and controlled appropriated funds.                       identiﬁed contractors.

Fiscal Year 2003 Postal Service Financial                Use of Reverse Auctions, CA-AR-04-001
                                                         The Postal Service’s use of reverse auction events
Statement Audits — Washington, D.C.,                     conducted by one contractor met user requirements,
Headquarters, FT-AR-04-005; St. Louis IT/ASC,            successfully maintained supplier relations and
FT-AR-04-007; San Mateo IT/ATC, FT-AR-04-008;            identiﬁed cost savings. However, the criteria for
and Eagan, FT-AR-04-010                                  calculating supply chain management savings were
                                                         not complete and had not been published as a
                                                         formal policy. Also, subsequent to completion of
Fiscal Year 2003 Information System Controls,            the reverse auction pilot program, Postal Service
Eagan, San Mateo, and St. Louis Information              ofﬁcials awarded a noncompetitive contract without
Technology and Accounting Service Centers,               performing a cost or price analysis or providing
IS-AR-04-001                                             documentation of price reasonableness.
In support of the independent public accounting
ﬁrm’s opinion on the Postal Service’s ﬁnancial
statements, we examined the ﬁnancial activities and
accounting records at the Information Technology         Financial Field Reviews
and Accounting Service Centers in St. Louis, Mo.;        As part of the overall audit of the Postal Service
San Mateo, Calif.; and Eagan, Minn. The OIG also         ﬁnancial statements, we audited the ﬁnancial
audited the computer systems that generated the          operations of 103 installations, including 45 business
ﬁnancial data. Management’s policies and accounting      mail entry units, 40 Post Ofﬁces, 9 contract postal
procedures conformed with generally accepted             units, 6 self-service postal centers and 3 stamp
accounting principles and provided for an adequate       distribution ofﬁces. Generally, ﬁnancial transactions
internal control structure. The OIG did not identify     were reasonably and fairly represented in the
any instances of noncompliance with laws and             accounting records, internal controls were in place
regulations that have a direct and material affect on    and effective. However, at 91 installations, there
the ﬁnancial statements.                                 were minor internal control and compliance issues,
                                                         including problems with accountability, cash, stamps
Postal Service Board of Governors’ Travel and            and Post Ofﬁce boxes.
Miscellaneous Expenses and Ofﬁcers’ Travel and           For the FY 2004 Cost and Revenue Analysis, the
Representation Expenses for Fiscal Year 2003,            OIG observed statistical tests conducted at eight
FT-AR-04-004, FT-AR-04-003                               Postal Service installations. Data collectors generally
For the ﬁscal year ending September 30, 2003,            followed Postal Service policies and procedures
the Board of Governors’ expenses of $260,000             when conducting statistical tests except for minor
and the ofﬁcers’ expenses of $1 million were             errors found at ﬁve of the eight installations.
properly supported and complied with the Board of        As part of a series of protective reviews, the OIG
Governors’ guidelines and Postal Service policies and    reviewed 25 Post Ofﬁces and one mail processing
procedures.                                              center. The OIG conducted the reviews to provide
                                                         management with timely information on sensitive,
Potential Improper and Erroneous Payments,               high-risk activities at these Postal Service facilities.
FT-AR-04-001                                             The OIG reviewed a number of issues, including the
The Postal Service generally made proper payments.       adequacy of controls over accountability for assets,
However, because personnel did not always follow         capital properties, vehicles, customer service, the
policies and procedures, the Postal Service awarded      workplace environment, training and development,
several million in improper contracts and made           and facility safety and security. The OIG also reviewed
$119,103 in duplicate payments.                          the adequacy of controls over mail operations.

Realty Asset Management Program,                         Collection of Advances to United States
CA-MA-04-002                                             International Air Carriers, FT-MA-04-001
The Postal Service could improve its process             The Postal Service did not always collect advances to
for identifying and reporting excess facilities and      domestic air carriers for services to foreign countries
vacant space. Postal Service area ofﬁcials did not       for transporting international mail. Although the $5
review their property inventory annually because         million cap for this fund was not exceeded, $2.6




                                                                                                         October 1, 2003 - March 31, 2004 | 51
                            million in advances, or over 50 percent of the revolving   Paciﬁc Area’s Equal Employment Opportunity
                            fund balance, was outstanding over three years.            Monetary Settlement Process, HM-AR-04-002
                                                                                       The Paciﬁc Area complied with its Equal Employment
                            Federal Agencies’ Centralized Trial Balance                Opportunity (EEO) policy requiring the human resource
                            System Veriﬁcation; Federal Intragovernmental              manager to approve all settlements over $10,000,
                            Transactions, FT-AR-04-006, FT-AR-04-009                   regardless of the position of the individual being
                            At the request of the Department of the Treasury, the      charged. Also, the Paciﬁc Area generally complied
                            OIG performed agreed-upon procedures, as stated            with Postal Service EEO policy requiring ofﬁcers and
                            in guidance for the Federal Agencies’ Centralized Trial    executives to obtain higher-level approval to settle
                            Balance System Veriﬁcation System. We provided             complaints against themselves for $25,000 or more.
                            our report to Treasury and GAO to help them prepare
                            and audit the consolidated ﬁnancial statements of the      Postal Service’s Death Beneﬁt Payments to
                            U.S. Government for the year ending September 30,          Decedent’s Survivor(s) - Phase II, HM-MA-04-001
                            2003. Postal Service management is responsible for         The Postal Service Injury Compensation Control
                            the proper accounting, presentation and reporting of       Ofﬁce did not effectively monitor or review death
                            its consolidated ﬁnancial statements and reporting of      beneﬁt claim ﬁles, and the ﬁles did not always contain
                            information to Treasury.                                   current documentation. As a result, the Postal
                            International Air Carriers, FT-MA-04-001                   Service paid an estimated $3.4 million in questionable
                            The Postal Service did not always collect advances         compensation to survivors for beneﬁts that they
                            to domestic air carriers for services to foreign           might not have been entitled to receive.
                            countries for transporting international mail. Although    Review of Postal Service’s December 2000 EEO
                            the $5 million cap for this fund was not exceeded,
                            $2.6 million in advances, or over 50 percent of the        Settlement Policy, HM-AR-04-003
                            revolving fund balance, was outstanding over three         Postal Service policy requiring ofﬁcers and executives
                                                                                       to obtain higher level approval in order to settle
                            years.                                                     EEO complaints for $25,000 or more against
                            Rate Case Development Process, FT-OT-04-001                themselves appeared inconsistent with EEO policies
                            The OIG issued an informational report describing          and procedures. Postal management subsequently
                            the Postal Service’s internal rate case development        communicated with EEO counsel to address this
                            process.                                                   perceived inconsistency, and EEO counsel advised
                                                                                       the Postal Service that it would not suggest any
                                                                                       changes to the Postal Service’s alternative dispute
                            Stamp Accountability and Controls Related                  resolution policy.
                            to Minnesota Diversiﬁed Industries, Inc.,
                            FF-AR-04-015                                               Postal Service’s Equal Employment Opportunity
                            Postal Service records showed $8.7 million more            Organizational Structure, HM-AR-04-004
                            than the stamp stock actually on hand with                 The Postal Service’s EEO structure at headquarters
                            the contractor and in the contractor’s inventory           was consistent with Equal Employment Opportunity
                            system. Also, the Postal Service did not establish         Commission (EEOC) guidance; however, at the
                            effective internal controls over stamp destruction         area level, its EEO structure was not. Area ofﬁcials
                            at the contractor’s facility, resulting in $370,976        executing and advising on personnel actions were
                            in destruction costs. However, the Postal Service          also responsible for managing, advising or overseeing
                            disagreed with the destruction cost calculation.           the EEO complaint processes.

                                                                                       Postal Service’s Rehabilitation Program for
                                                                                       the Long Beach, Los Angeles, and San Diego
                            ENHANCE PERFORMANCE-                                       Performance Clusters, HM-AR-04-005
                            BASED CULTURE                                              The Postal Service’s Rehabilitation Program is
                                                                                       adequately placing employees with work-related
                            Compendium of Prior Audits Addressing the                  injuries in the Long Beach, Los Angeles, and San
                            Postal Service’s Injury Compensation Program,              Diego Performance Clusters in modiﬁed work
                                                                                       assignments. However, the injury compensation
                            HM-OT-04-002                                               control ofﬁce staff did not closely monitor the medical
                            The Compendium of Prior Audits Addressing the
                                                                                       and work status of rehabilitation employees, which
                            Postal Service’s Injury Compensation Program
                                                                                       could result in some rehabilitation employees working
                            provided a history of the program, a summary of
                                                                                       beyond their recommended medical restrictions,
                            prior OIG audit reports and the management
                                                                                       risking additional injury, or not working to their full
                            challenges those audits addressed.
                                                                                       capacity, thus reducing their units’ productivity.
                            Conditions at Patterson Station in the Baltimore           Vehicle Storage — Robert F. Kennedy Stadium,
                            District, NL-MA-04-002                                     Washington, D.C., NL-MA-04-001
                            Patterson Station employees were exposed to
                                                                                       Approximately 200 Postal Service vehicles were
                            hazardous conditions and we recommended that
                                                                                       stored at an unsecured Robert F. Kennedy Stadium
                            management identify all the individuals who may
                                                                                       parking lot in Washington, D.C. Our inspection of the
                            have been affected to ensure that they are notiﬁed
                                                                                       parking lot, and the vehicles stored there, identiﬁed
                            about potential exposure. Also, the Baltimore District
                                                                                       safety, security and environmental issues.
                            unnecessarily spent $100,000 to lease the Patterson
                            Station (for very limited delivery operations) and
                            could save $25,000 by terminating the Patterson
                            Station lease. District management took immediate
                            action and relocated Patterson delivery operations
                            to another location two miles away. Postal
                            management stated that equipment was removed
                            and it began negotiating lease termination.




52 | October 1, 2003 - March 31, 2004
                                                                                                                                                    SUPPLEMENTAL INFORMATION
SUPPLEMENTAL INFORMATION
INVESTIGATIVE SYNOPSES
   MANAGE COSTS                                             has begun serving a criminal sentence. The woman
                                                            ﬁled the suit for an automobile accident with a San
                                                            Francisco letter carrier, in which she sustained
                                                            $63.55 worth of property damage.
   Facilities                                               The OIG investigation led to the woman being
   Construction manager pled guilty to accepting            criminally convicted on perjury charges related
   a gratuity while overseeing a construction and           to omissions about a prior injury. She appealed
   pavement contract worth $3.4 million                     her criminal conviction to the 9th Circuit Court of
   The Postal Service is continually searching for          Appeals, where her conviction was sustained, and
   ways to reduce costs associated with building            then to the Supreme Court of the United States,
   and maintaining facilities. The Postal Inspection        where her petition was denied. This year, she began
   Service and the OIG conduct investigations that          serving her criminal sentence, which includes a six-
   target contractors who have attempted to defraud         month prison term, three years of probation post-
   the Postal Service by submitting false invoices,         imprisonment and a ﬁne of $10,000.
   performing poor work, or using substandard
   construction materials.                                  Over $400,000 recovered in lost revenue from
                                                            third-party-mailer postage due scheme
   For example, at a New Jersey facility, the Postal        For approximately ﬁve months, a Missouri Post
   Service contracted with a construction and paving        Ofﬁce was accruing large postage due charges
   company for over $3.4 million in paving work. The        from a third-party mailer due to Standard Mail being
   OIG investigated allegations that an executive of        returned to the sender. As of January 2004, over
   the company provided a gratuity to a construction        $400,000 in postage due charges had accumulated
   manager, under contract to the Postal Service, to        at the Post Ofﬁce on approximately 106,000 pieces
   oversee the project. The OIG investigation revealed      of Standard Mail.
   that the executive provided free paving services
   at the construction manager’s residence. The             The OIG was contacted by a postal supervisor
   investigation further revealed that the construction     and initiated an investigation into the postage due
   manager approved inﬂated charges on a contract           charges. The OIG assisted the Postal Service in
   modiﬁcation. Both parties have pled guilty to charges    collecting the lost revenue. To date, the company has
   relating to gratuities. The company pled guilty to       paid over $400,000 for the postage due charges.
   charges relating to submitting false statements.         Additional monies are expected to be paid.
   Sentencing is scheduled in May 2004, and
   debarment proceedings against the company are            Postal employee agreed to pay $3,000 after
   pending.                                                 embezzling funds through the unauthorized use
                                                            of a purchase card
   Telecommunications company paid $1 million               The OIG worked with the Postal Inspection Service
   to settle allegations of false claims related to         on a case involving a postal clerk in Maryland who
                                                            was suspected of using a government IMPAC
   overcharges and work never performed                     (purchasing) card for personal gain.
   The Postal Service hired a large telecommunication
   company to install wire at numerous postal facilities    The investigation uncovered evidence that included
   nationwide. In conjunction with the wire installation,   the clerk’s confession that he embezzled Postal
   the company also performed asbestos abatement            Service funds and property. The clerk would use
   work at approximately 265 facilities. The Postal         his IMPAC card to buy authorized items at local
   Service paid the company nearly $1.3 million for the     area stores, but later return some of the items to
   abatement services.                                      the merchants for store credit or cash refunds. An
                                                            administrative settlement was reached, in which the
   The OIG identiﬁed substandard work and                   employee agreed to repay the Postal Service $3,000,
   questionable labor hours relating to the asbestos        retire from the Postal Service and remain in a leave
   abatement. To protect the interests of the Postal        without pay status, until the retirement is in effect.
   Service, the OIG asked its environmental staff
   to conduct inspections of the 265 facilities. The        Twenty members of a credit card theft ring
   inspections conﬁrmed allegations of questionable         arrested for fraudulent use of Postal Service
   charges and substandard work at 70 percent of the
   facilities. The U.S. Attorney’s Ofﬁce pursued the        credit cards
   contractor for False Claims Act violations related       In the Southeast Area, individuals were creating
   to billing the Postal Service for work that was          counterfeit Voyager cards (credit cards used by
   either over-billed, never performed or substandard.      postal employees to pay for gas and maintenance
   Consequently, the company agreed to pay $1 million       services for government vehicles) and commercial
   to settle the allegations.                               gas credit cards. These credit cards, along with
                                                            others that were stolen, were being fraudulently used
   Interest and Other Expenses                              to purchase large quantities of fuel in the Miami area.
                                                            Approximately $400,000 in fraudulent postal fuel
   Appeal denied for California woman convicted of          charges have been reported. Allegedly, the group
   ﬁling false $1 million tort claim against the Postal     then resells the fuel to legitimate gas stations for
   Service                                                  proﬁt. The OIG has made 20 arrests in this case, to
   A northern California woman, who previously lost         date.
   her $1 million lawsuit against the Postal Service,




                                                                                                            October 1, 2003 - March 31, 2004 | 53
                            Two individuals convicted on charges relating to
                            the ﬁling of a false tort claim seeking $100,000 in
                                                                                      Workers’ Compensation
                            damages for an ankle injury at a postal facility          California physician pled guilty to ﬁling a false
                            The OIG investigated allegations that an individual
                            ﬁled a false tort claim against the Postal Service for    statement for services not rendered
                            a broken ankle sustained at a Nebraska Post Ofﬁce.        The OIG worked with the Department of Labor
                            The individual sought damages in the amount of            and the California Department of Insurance on
                            $100,000. The OIG investigation substantiated that        a case involving a San Diego physician who
                            the claim was false. The individual ﬁling the claim       committed workers’ compensation related fraud.
                            was convicted by trial and is awaiting sentencing.        The investigation revealed that the physician was
                            A witness who made false statements to federal            submitting fraudulent workers’ compensation claims
                            investigators concerning her knowledge of the injury      for services he had not provided. The physician pled
                            pled guilty to one count of making a false statement      guilty to one count of ﬁling a false statement and one
                            and was put on probation for three years.                 count of presenting a false statement. A San Diego
                                                                                      Superior Court judge has suspended the physician’s
                                                                                      medical license pending the outcome of the judicial
                                                                                      proceedings. Sentencing is pending.
                            Vehicles
                            Company charged with theft for over-billing
                            $861,000 in vehicle repair charges                        IMPROVE SERVICE
                            The Postal Service uses a combination of in-house         Extortion scheme uncovered by tracking an
                            repair facilities and contracted vehicle repair shops     unauthorized access to a Postal Service public
                            to maintain its ﬂeet of delivery vehicles. A contracted
                            repair shop in California billed over $1 million to       web service
                            Postal Service Voyager cards while only performing        A 21-year-old individual from Minnesota allegedly
                            $160,000 in authorized work. The owner of the repair      obtained unauthorized access to a Postal Service
                            shop has been charged in the Superior Court of            public web service and to computer systems
                            California with 10 counts relating to theft.              belonging to at least two ﬁnancial institutions. The
                                                                                      Royal Canadian Mounted Police provided the OIG
                                                                                      with information that allowed positive identiﬁcation of
                                                                                      the individual.
                            Transportation                                            After obtaining a warrant, based on an OIG afﬁdavit,
                            Transportation company repays approximately               the local sheriff’s ofﬁce seized the computer. The
                                                                                      images were turned over to the OIG’s Technical
                            $500,000 in overpayments                                  Crimes Unit for analysis. The analysis disclosed
                            With the rising cost of fuel, Postal Service
                                                                                      e-mails sent to companies asking for money in return
                            transportation costs are an increasing area of
                                                                                      for information on how he broke into their systems.
                            concern. The OIG and the Postal Inspection Service
                            worked together in the St. Louis area on a “qui           In addition, the OIG identiﬁed over 150,000 legitimate
                            tam” suit ﬁled by a former general manager of a           credit card numbers and hundreds of other sensitive
                            transportation company.                                   ﬁles illegally obtained during the intrusion of a ﬁnancial
                                                                                      institution in the Midwest. The subject was indicted
                            The suit charged that the Postal Service had overpaid
                                                                                      and has surrendered to federal ofﬁcials.
                            the company and that company management was
                            aware of the overpayments and concealed the fraud.
                            Total recoveries to the Postal Service, including those   Unauthorized password decrypting software
                            secured by the Postal Inspection Service, are over        detected on Postal Service server
                            $500,000.                                                 A Postal Service electronic technician at a Postal
                                                                                      Service Processing and Distribution Center
                                                                                      (P&DC) admitted to using unauthorized software
                                                                                      on computers and running password decrypting
                            Supplies and Services                                     software on the server at the P&DC.
                            Postal Service subcontractor sentenced for mail           Computer forensic examination of the server and two
                            fraud and false statements involving a $1.6               computer systems veriﬁed that unauthorized software
                            million contract, in connection with the 2001             had been downloaded and used. The employee
                                                                                      was put on emergency off-duty status and has
                            anthrax decontamination at a New York postal              subsequently been removed from the Postal Service.
                            facility
                            A Postal Service subcontractor was hired to clean
                            and decontaminate a New York Processing &
                            Distribution Center, after anthrax was discovered at
                            the location. The subcontractor produced Hazardous
                            Waste Operations training certiﬁcations that falsely
                            represented the subcontractor’s employees as
                            having the required training in order to clean and
                            decontaminate the facility. Since the employees did
                            not have the required training, the resulting claims of
                            $1.6 million that were submitted were in violation of
                            the contract. The subcontractor pled guilty to making
                            a false statement and was sentenced to 30 months
                            in prison and ordered to make restitution to the
                            Postal Service in the amount of $1,385,971.




54 | October 1, 2003 - March 31, 2004
FREEDOM OF INFORMATION ACT
REQUESTS
For the period of October 1, 2003, through March 31, 2004



OIG Actions                                                 Number of Requests

Carryover from prior period                                                    5
Received during the period                                                   62

TOTAL ON HAND DURING THE PERIOD                                              67

Processed during the period
  Released                                                                   22
  Withheld                                                                   10
Referred to Postal Service or other agency                                   23
Otherwise closed*                                                              4

TOTAL PROCESSED DURING THE PERIOD                                            59

BALANCE AT END OF PERIOD (PENDING)                                             8




OIG Actions                                                 Number of Requests

Total appealed                                                                3
Total upheld                                                                  3
Appeals pending                                                               0




                                                            October 1, 2003 - March 31, 2004 | 55
                GLOSSARY
                             Advance fee - Obtaining fees purporting to secure               subclasses: postcards, letters and sealed parcels,
                             buyers or obtain loans.                                         and Priority Mail. Any mailable matter may be sent as
                                                                                             First-Class Mail. First-Class Mail is a Postal Service
                             Bargaining unit employee - A Postal Service                     trademark.
                             employee who is represented by a labor organization
                             (union) that negotiates with the Postal Service for             Flat-size mail - A mailpiece that exceeds one of
                             the wages, hours and other terms and conditions of              the dimensions for letter-size mail (11-1/2 inches long,
                             employment. These employees include city carriers,              6-1/8 inches high, 1/4 inch thick) but that does not
                             clerks, mail handlers, rural carriers, special delivery         exceed the maximum dimension for the mail processing
                             messengers, maintenance employees and motor vehicle             category (15 inches long, 12 inches high, 3/4 inch
                             operators.                                                      thick). Dimensions are different for automation rate flat-
                                                                                             size mail eligibility. Flat-size mail may be unwrapped,
                             Boiler rooms/telemarketing - An office or                       sleeved, wrapped or enveloped.
                             suite of offices with banks of telephones and telephone
                             solicitors who use high-pressure techniques to persuade         Fraud internet schemes - Fraudulent schemes
                             consumers to respond to bogus offers.                           using the Internet with a nexus to the mail.

                             Bulk mail - Mail that is rated for postage partly by            Lottery - Advertisements seeking money or property
                             weight and partly by the number of pieces in the mailing.       by mail for participation in schemes to win prizes
                             The term is generally used to refer to Standard Mail (A).       through chance.

                             Business mail entry unit (BMEU) - The area                      Merchandise failure to pay - Mail order
                             of a postal facility where mailers present bulk, presorted      merchandise that is acquired without providing payment.
                             and permit mail for acceptance. The BMEU includes
                             dedicated platform space, office space and a staging            Merchandise misrepresentation - Mail order
                             area on the workroom floor.                                     merchandise or services are materially misrepresented
                                                                                             in advertising.
                             Contest/sweepstakes - Schemes in which the
                             respondent is required to pay a fee to obtain prizes of         Miscellaneous - Any other scheme not described in
                             money, gifts or other items of value. “Prizes” are either       a specific category.
                             never shipped or are inferior to what was promised.
                                                                                             Postal Rate Commission (PRC) -
                             Employment - Soliciting money for information or                An independent federal agency that makes
                             assistance in obtaining nonexistent or misrepresented           recommendations on Postal Service requests for
                             jobs.                                                           changes in postal rates and mail classifications.
                                                                                             The five commissioners are nominated by the
                             Express Mail - A mail class that provides expedited             President and approved by the U.S. Senate.
                             delivery service for mailable matter subject to certain
                             standards. It is available in five basic domestic service       Postal Reorganization Act - The statute that
                             offerings (Same Day Airport Service, Custom Designed            requires postal rates and fees to “provide sufficient
                             Service, Next Day Service, Second Day Service and               revenues so that the total estimated income and
                             Military Service). Express Mail International Service is        appropriations . . . will equal as nearly as practicable
                             available between the United States and most foreign            total estimated costs.” (Public Law 91-375, signed
                             countries. Express Mail is a Postal Service trademark.          August 12, 1970).

                             External First-Class Measurement -                              Priority Mail - First-Class Mail that weighs more
                             A system whereby a contractor performs independent              than 13 ounces and, at the mailer’s option, any other
                             service performance tests on certain types of First-            mail matter weighing 13 ounces or less. Priority Mail
                             Class Mail (that is, letters, flats, postcards) deposited in    provides expedited delivery.
                             collection boxes and business mail chutes. It provides
                             national, area, performance cluster, and city estimates,
                             which are compared with Postal Service goals. The
                             results are released to the public quarterly by the
                             consumer advocate.

                             False billings - Mailing solicitations in the guise
                             of billings.

                             First-Class Mail - A class of mail that includes all
                             matter wholly or partly in writing or typewriting, all actual
                             and personal correspondence, all bills and statements
                             of account, and all matter sealed or otherwise closed
                             against inspection. First-Class Mail comprises three




56 | October 1, 2003 - March 31, 2004
Processing and distribution center/facility                    Standard Mail - A class of mail consisting of
(P&DC/F) - A central mail facility that processes and          mailable matter that is not required to be mailed as First-
dispatches part or all of both incoming mail and outgoing      Class Mail or is not mailed as Periodicals.
mail for a designated service area. It also provides
instructions on the preparation of collection mail, dispatch   Verification - The procedural checks of a mailing
schedules, and sorting plan requirements to mailers.           presented by a mailer to determine proper preparation
                                                               and postage payment.
Rate setting - The process by which postage rates
and fees are changed under the joint responsibility of the     Voice of the Employee (VOE) - An assessment
Postal Service and the Postal Rate Commission (PRC).           of Postal Service employee issues that will strengthen
Postal Service managers recommend proposed rates               the company, shape the business future and improve
for all mail classes to the Board of Governors; with the       employees’ role in its success.
approval of the Board, the proposed rates are sent to
the PRC, which holds public hearings and recommends            Work at home - Schemes, such as envelope
rates. If the Board finds these rates unsatisfactory, it may   stuffing, that do not provide home employment.
modify them by unanimous vote.

Retail facility - A postal unit (a Post Office and its
subordinate units as well as military Post Offices) that
sells postage stamps and provides other postal retail
services to customers. The subordinate units are within
the service area of a main Post Office and include Post
Office stations, Post Office branches, contract postal
units, and non-personnel units.

Revenue forgone appropriations -
Congressionally authorized reimbursements to the Postal
Service for revenue that was not received because of
phased or lower rates mandated by Congress for certain
mail categories such as free matter for the blind.




                                                                                                                             October 1, 2003 - March 31, 2004 | 57
NOTES PAGE




    58 | October 1, 2003 - March 31, 2004
            U.S. Postal Service
         Ofﬁce of Inspector General

 Help track down fraud,
waste and misconduct at
 the U.S. Postal Service
                          HOTLINE
1-888-USPS-OIG
             (1-888-877-7644)
                                TO REPORT:
  ■   Alleged violations of law, rules or regulations   ■   Conﬂict of interest
  ■   Signiﬁcant mismanagement and waste of funds       ■   Bribes, kickbacks or bid rigging
  ■   Whistleblower reprisal                            ■   Fraudulent travel claims
  ■   Misconduct of authority                           ■   Contract or procurement fraud
  ■   Improper use of government resources              ■   Health care fraud
  ■   Endangerment of public health and safety          ■   Workers’ compensation fraud
  ■   Misconduct
            For additional information, see our website at www.uspsoig.gov
Ofﬁce of Inspector General
    1735 N. Lynn Street
 Arlington, VA 22209-2020
       (703) 248-2100
    Fax: (703) 248-2291
Internet: www.uspsoig.gov
